Office of Inspector
Semiannual   Report General
U.S, Department of Labor
U.S. Department of Labor
Elizabeth Dole, Secretary

Office of Inspector General
Julian W. De La Rosa, Inspector General

April 1 - September 30, 1990
                    THE INSPECTOR           GENERAL'S        MESSAGE

As the fourth Inspector General for the U.S. Department of Labor, I am honored to have
been appointed by the President to serve in this important capacity and gratified that the
U.S. Senate confirmed my appointment.

The Inspector General function is critical to the effective operations of our Government.
With the assistance of the auditors, investigators, and support staff of the Office of Inspec-
tor General, I look forward to carrying out the responsibilities and obligations prescribed
by the Inspector General Act of 1978. I also look forward to maintaining an effective
working relationship with the Secretary, the Department's Executive Staff, and the Con-
gress while retaining the necessary independence and objectivity to perform my duties.

The prime objective of the Department of Labor is to protect and, if possible, enhance the
health, safety, working conditions, and financial security of more than 100 million Ameri-
cans and their families. These individuals are best served by a highly professional and
diligent Office of Inspector General which conducts broad oversight of Department of
Labor programs, identifies operational problems at an early stage, and investigates poten-
tial criminal activities.

I intend to focus my attention in several areas. First, the Department needs to have a
better balance of civil and criminal enforcement and it must improve the coordination of its
entire criminal enforcement program. As part of this goal, it needs to actively press for
consideration of its Employee Retirement Income Security Act (ERISA) legislative pack-
age in order to better safeguard the health and security of American workers.

Second, I plan to use my criminal investigative resources to the maximum extent possible
and, in this regard, I intend to explore all opportunities, legislative or otherwise, to mini-
mize the restrictions imposed by the March 1989 Department of Justice opinion concerning
the investigative authority of the Inspectors General.

Finally, I believe the Congress should signal its strong commitment to law enforcement by
providing basic law enforcement tools and techniques, such as the powers to make arrests
and carry firearms, to the Office of Inspector General.

I have enjoyed my working relationship with Secretary Elizabeth Dole. I am grateful for
her support and for the spirit of cooperation she has extended to me and my associates and
I wish her well in her new position. I look forward to working with her successor to ensure
that the Department of Labor continues to be a strong and vibrant voice for the American
worker.




Julian W. De La Rosa
Inspector General
                         CONTINUING CONCERNS
                       OF THE INSPECTOR GENERAL

Several serious concerns of the Office of Inspector General (OIG) that can have
a substantial impact on the effectiveness of Department   of Labor programs and
operations   remain in the category of "unfinished business."


                          The OIG testified on several occasions before the Congress about
Improving Criminal        the need for criminal sanctions against perpetrators of egregious
Enforcement  Actions      white-collar crime involving laws protecting American workers. In
                          response to the OIG's continuing criticism and a series of some
                          eight hearings during the last 13 months, as well as considerable
                          press and media attention, the Department formed a task force to
                          study the problem and make recommendations to the Secretary.

                          While the Task Force's September 1990 report made several rec-
                          ommendations emphasizing voluntary compliance and informa-
                          tion sharing, which may improve the general enforcement program,
                          in our opinion, the report failed to address effectively the central
                          issue of criminal enforcement. The report ignores the problem of
                          clarifying Department of Justice's Office of Legal Counsel's March
                          1989 opinion which severely limits the OIG's investigative ability
                          and limits the Secretary's ability to delegate authority for investiga-
                          tions. In addition, it does not acknowledge the OIG's responsibility
                          to coordinate investigations as specified in the Inspector General
                          Act. The OIG will be closely reviewing and monitoring the Depart-
                          ment's efforts and progress in this area.


                         The OIG also testified during this period about the problem of
Fraudulent    Health     fraudulent multiple employer welfare arrangements or MEWAs.
Insurance    Schemes     These schemes continue to result in tragic consequences by holding
                         thousands of employers and their workers personally liable for
                         unpaid medical bills even though they believed there was health
                         coverage.

                         The OIG will continue to conduct Federal criminal investigations
                         and assist the States in addressing the MEWA problem. A contin-
                         ued Federal role is necessary because the multi-State operation of
                         most of these fraudulent MEWAs severly hampers the ability of
                         individual States to reach the culpable individuals.
                                            EXECUTIVE SUMMARY


Small        Employer            HeaBth Insurance                   Fraud

Fraudulent multiple employer welfare arrangements or MEWAs continue to result
in tragic consequences to thousands of American employers and workers ...................... 1, 39



Pension          and Welfare              Benefits         Vulnerability

The nation's private pension and welfare plans are still open to fraud and abuse
because of inadequate audits by independent public accountants, lack of
independent plan oversight and the absence of a requirement that plans report
significant ERISA violations. Although a draft audit guide finally has been
presented by the AICPA, a final product must be promulgated quickly to address
the continuing vulnerability ................................................................................................             2, 21, 47


DOL Criminal                  Enforcement               Problems


In a June 1990 report to the Secretary, OIG concluded that, regardless of the role
management defines for criminal enforcement, the Department needs a framework
to capture and report data about its criminal investigations. The report also urged
the Department to revisit the issues raised by two Department of Justice opinions
for reasons of departmental independence and policy. However, these issues were
not addressed in the "Report to the Secretary of the Task Force on Enforcement"
which was issued in September 1990 ................................................................................ 1, 31, 47



Job Training              Partnership              Act (JTPA)             Problems

OIG work continues to disclose extensive financial difficulties and management
problems in JTPA programs nationwide. Unfortunately, legislation that would have
addressed many of these flaws died. Without legislation, these kinds of problems
will continue ..............................................................................................................................   11, 48

For example, OIG questioned $7.64 million in JTPA expenditures by the Louisiana
Department of Employment and Training which spent the money inappropriately
for a high-tech learning center in which no JTPA participants were trained,
ineffective dislocated worker training with unachievable goals, and duplicate
services already available from other sources such as the Job Service .................................... 12



                                                                           5
The OIG questioned 33 percent of the total JTPA expenses reported (primarily
for less-than-arms-length transactions and improper expenses) in an audit of the
National Urban Indian Council which was doing business both as the Georgia
Association of Native Americans and the Delaware Indian Council. To date,
audit findings from this and previous reports total over $1.1 million ......................................14

After auditing several Opportunities Industrialization Centers of America
(OIC/A) grants, OIG recommended that OIC/A be designated a "high risk"
grantee. OIG also questioned almost 36 percent of the JTPA monies granted to
the Greater Flint Opportunities Industrialization Center in Flint, Michigan ........................14


Employment               Service Problems

ETA's failure to impose foreign labor certification fees resulted in a loss to the
Treasury of an estimated $100 million since Fiscal Year 1988. During Fiscal
Year 1991,we plan to review other departmental programs to identify those
which should institute user fees for recovery of program costs ................................................19


DOL Ffinancfia_ Management                             Problems

OIG's oversight of the Department's new general ledger accounting system
(DOLAR$) identified adverse conditions which prevent the Secretary of Labor
from reasonably assuring the Department's compliance with statutory requirements                                                      ........28


Top Union Officials                   and Reputed             Organized            Crime        Figures lndicted

Eight top officials of the Painters Union in New York City, two reputed major
figures of the Luchese organized crime family, and others were indicted by a
New York grand jury in June. The 153-count indictment charges them under the
New York State Organized Crime Control Act with the crime of enterprise
corruption, bribing a labor official, receiving bribes, grand larceny, coercion,
and conspiracy ..................................................................................................................................
                                                                                                                                             43
                                                   Selected Statistics
                                         April 1 - September 30, 1990

Audit Activities

      Reports issued on DOL activities ............................................................................245
      Total Audit exceptions ............................................................................$131.2 million
            Recommended cost efficiencies ....................................................$99.3 million
      Reports issued for other Federal agencies ................................................................1
      Dollars resolved ......................................................................................$347.6 million
            Allowed ..............................................................................................
                                                                                                                $3.6 million
            Disallowed ......................................................................................$344.0 million



Fraud and Integrity              Activities

      Allegations reported ..................................................................................................545
      Cases opened ...............................................................................................................
                                                                                                                                 304
      Cases closed ................................................................................................................
                                                                                                                                 521
      Cases referred for prosecution ................................................................................138
      Individuals or entities indicted ..................................................................................97
      Successful criminal prosecutions ............................................................................154
      Recoveries, fines, penalties, restitutions, settlements,
       and cost efficiencies ..................................................................................$8.5 million



Labor Racketeering              Investigation             Activities

      Cases opened ................................................................................................................62
      Cases closed ..................................................................................................................43
      Individuals indicted ......................................................................................................76
      Individuals convicted ..................................................................................................44
      Fines ....................................................................................................................
                                                                                                                             $365,500
      Forfeitures ................................................................... _......................................$259,444
      Restitutions ....................................................................................................$2,737,731
      Backtaxes ............................................................................................................ $176,271




                                                                   7
                                                             Table of Contents

Inspector General's                  Message ......................................................................................................               i

Continuing Concerns                      ................................................................................................................         1

Executive Summary ....................................................................................................................                            5

Selected Statistics                ......................................................................................................................         7

Chapter 1 - Office of Audit ....................................................................................................                                 11

           Section 1 - Agency Activities ....................................................................................................................    11
           Section 2 - Financial Management in DOL ............................................................................................                  27
           Section 3 - The Department's Enforcement Program ..........................................................................                           31


Chapter 2 - Office of Investigations                                ......................................................................................       33

           Complaint Handling Activities ................................................................................................................        37

Chapter 3 - Office of Labor Racketeering                                         ..........................................................................      39

Chapter 4 - Office of Resource                             Management                 and Legislative Assessment .................... 47

Chapter 5 - Audit Resolution                             ................................................................................................        51

Chapter       6 - Management                    Decisions ......................................................................................                 55

Chapter 7 - Audit Schedules and Tables ..............................................................................                                            57
          Money Owed to the Department of Labor ............................................................................................                     59
          Summary of Audit Activity of DOL Programs ......................................................................................                       60
          Summary of Audit Activity of ETA Programs ......................................................................................                       61
          Summary of Audits Performed under the Single Audit Act ................................................................                                62
          Summary of Audits Performed under the Single Audit Act, Multi-Agency Reports ......................                                                    63
          Summary of Audit Resolution Activity ..................................................................................................                64
          Summary of Audit Resolution Activity, Unsupported Costs ..............................................................                                 65
          Summary of Audit Resolution Actions on Audits Unresolved Over 6 Months ................................                                                66
          Audits Unresolved Over 6 Months, Unsupported Costs ......................................................................                              67
          Unresolved Audits Over 6 Months Precluded from Resolution ..........................................................                                   68
           Summary of Final Action Activity ............................................................................................................         70
           List of Final Reports Issued ......................................................................................................................   71


Appendix - Memorandum                            from Deputy Secretary on "Underutilization".                                              ..................... 79

Abbreviations             used in this Report                    ........................................................................................        83




                                                                                      9
                                                Chapter I

                                       OFFICE OF AUDIT


During this reporting period, 245 audits of program activities, grants, and contracts were
issued. Of these, 20were performed by OIG auditors, 42 by CPA auditors under OIG contract,
26 by State and local government auditors, and 157 by CPA firms hired by grantees.

This chapter has three sections. The first section                  contains information aobut audits of the
Department's programs (immediately following).                      The second section assesses progress and
problems in DOL's Federal financial management                      systems and reaffirms OIG's commitment
to annual audited financial statements (page 27).                   The third section reports on the Depart-
ment's enforcement program (page 31).

Reports on significant audit resolution are contained in Chapter 5 (page 51) and revised
management decisions can be found in Chapter 6 (page 55). Money owed to the Department,
audit schedules and tables, and a listing of final audit reports issued and resolved this period
are found in Chapter 7 (page 57).


                                                   Section 1
                                             Agency Activities

EMPLOYMENT AND TRAINING                                         activities);   continued   to monitor    the Unemployment
ADMINISTRATION (ETA)                                            Insurance Service's developing Quality Control pro-
                                                                gram; and completed a review of the Department's
ETA oversees the administration of the nation's em-             portion of the Foreign Labor Certification program
ployment and training system, principally the employ-           which is operated by the Employment Service.
ment security programs of Unemployment Insurance
(UI) and the Employment Service (ES), as well as the            Job Training        Partnership         Act (JTPA)
Job Training Partnership Act (JTPA) programs. To-
gether, these programs are designed to maintain in-             Since the last SerniannualReport, the Congress appears
come for the unemployed while assisting them to obtain          to have moved closer to passage of needed amendments
employment and, if necessary, provide them training             to JTPA. In June, the OIG was asked to testify for the
through JTPA to increase their employability. ETA's             third time before the House Education and Labor
Fiscal Year 1990 authorized staffing is 1,753 with a            Committee on its recommendations for amendments.
budget of about $7.2 billion. Of that amount, $2.5              The Assistant IG for Audit and Secretary Dole each
billion was for State UI and ES operations and $3.9 bil-        testified. Subsequent to the hearing, most of the issues
lion was for JTPA. In addition, the UI Trust Fund               raised during testimony were addressed by H.R. 2039,
totaled $45.7 billion in Federal and State cash accounts        which was passed by an overwhelming margin of 416
on deposit with the U.S. Treasury.                              to 1. Additional remarks on this legislation are included
                                                                in the legislative assessment section (page 48).
During this reporting period, the OIG conducted sig-
nificant audit activity in JTPA programs (including          JTPA programs prepare youth and unskilled adults for
State level, Job Corps and other federally-administered      entry into the labor force and afford job training to


                                                           11
those economically disadvantaged individuals, dislo-               was questioned because the expenditure duplicated
cated workers, and others facing serious barriers to em-           services already available from the Louisiana Job Serv-
ployment. Under JTPA Titles II and III, the Secretary              ice, Title III contractors, or Title III substate grantees.
of Labor grants funds to 59 States and entities which, in
turn, distribute them to service delivery areas (SDAs)             Other questioned costs included $82,213 for an employ-
and other organizations. Grants are used for adult and             ment and training conference in New Orleans that was
youth programs, summer youth programs, and dislo-                  inadequately planned and resulted in unreasonable and
cated worker assistance,                                           unnecessary costs, and $212,753 for subgrants to the
                                                                   Louisiana Department of Economic Development for
During this period, the OIG audits questioned           $17        unallowable economic development activities.
million in JTPA expenditures.
                                                                   LDET     officials disagreed      with the findings but pre-

Louisiana Department of Employment                                 sented no documentation   to support their response.
and Training (LDET): Report I                                      Consequently, the recommendations remain unchanged.
(Audit Report No. 06-90-003-03-340,   issued 4/30/90)
                                                                   Junction City, Kansas Administrative
In the previous Semiannual Report, the OIG discussed               Service Contractor
work completed on the Louisiana Department          of             (Audit Report No. 05-90-045-03-340,   issued 5/4/90)
Employment and Training (LDET). The audit ques-
tioned $1.04 million in JTPA expenditures by LDET.                 At ETA's request, a special evaluation of the internal
This included $783,951 in JTPA costs expended for a                controls and subcontractor payments of the Adminis-
high-tech learning center for dislocated workers at                trativeService Contractor (ASC)in Junction City, Kansas,
Northwestern State University in Natchitoches, Louisi-             was conducted.
ana. Considerable funds were expended to install
satellite communications equipment, television cam-                ASC had serious internal control weaknesses attribut-
eras, studio equipment, and computers. ETA reports                 able to its organizational design and lack of written
that the State repaid $533,340 in August 1990, as a                guidance for most financial functions.
partial reimbursement for the TV equipment purchased.
                                                                   Inadequate     internal controls contributed to the basic
Louisiana Department of Employment                                 findings that bank accounts had not been reconciled
and Training (LDET): Report I!                                     timely; there was a lack of followup on dated outstand-
(Audit Report No. 06-89-006-03-340,   issued 9/17/90)              ing checks; and close-out expenditure reports for pro-
                                                                   gram years 1984 through 1987 were not filed with the
In September 1990, the OIG issued a second report to               Kansas Department of Human Resources.
ETA's Assistant Secretary which questioned a further
$6.6 million in JTPA expenditures.                                 Under audit resolution procedures, the State has 180
                                                                   days to resolve the audit with the SDA before ETA
Of the $6.6 million, $3.2 million was questioned because           takes action. The State has until November 4, 1990, to
LDET failed to administer JTPA Title III (dislocated               report to ETA.
worker) funds in a competent, timely manner. LDET
held back almost half the available Title III funds until          Greater Flint Opportunities
less than 4 months remained in the program year. As a              Industrialization Center (GFOIC)
result, program performance dropped dramatically be-               (Audit Report No. 05-90-058-03-340,   issued 9/28/90)
cause funds were expended at the last minute for
ineffective dislocated worker training programs with               ETA requested a review of the Greater Flint Opportu-
unachievable goals. The OIG concluded that this last-              nities Industrialization Center (GFOIC) in Flint, Michi-
minute activity wasted JTPA funds and that the funds               gan.
were expended with no regard for the results.
                                                                   The OIG questioned $540,663 of $1,514,385 paid to
Over $3 million in Title III (dislocated worker) funds             GFOIC during Program Years 1987 and 1988. The
was used to establish"Job Link Centers" at universities            audit found that GFOIC received $449,571 for im-
in the State. The purpose was to provide a "one stop"              proper contract modifications. In Program Year 1987,
location for dislocated workers. The cost of the centers           GFOIC requested a $292,000 contract change 5 months


                                                              12
after the original contract expired without stipulating                  Even though there were audits purchased by Big Five
additional oonsideration. In Program Year 1988, GFOIC                    from local CPA firms and numerous monitoring visits
received $157,571 it would not have earned had fixed                     by the State, these abuses were not discovered. Total
unit price, performance based contracts not been con-                    questioned costs amounted to $137,514.
verted to cost reimbursement 2 months prior to expira-
tion.                                                                    ONGOING AUDIT WORK

GFOIC also could not support or justify payment re-
ceived of $28,500 for 95 referrals to the SDA and                        As promised in the last Semiannual Report, the OIG
$65,592 for 32 unverified payments,                                      currently is developing information about JTPA pro-
                                                                         gram results by measuring the specific benefits that
The OIG also found that GFOIC needs to improve its                       JTPA participants receive and the relationship between
accounting system and internal controls to safeguard                     those benefits and the JTPA training. The OIG also is
funds received. The OIG found amounts claimed and                        reviewing the effectiveness of existing skills and needs
expensed to contracts could not be reconciled to books                   assessment techniques and the relationship between
and records. Also, there were no written policies and                    those assessments and the training or services provided
                                                                         the participants.
procedures to assure that GFOIC's operation was
administered in a manner whereby program objectives
could be achieved.                                                       The OIG is presently reviewing JTPA'S impact on
                                                                         reported placements. This assignment is a continuation
                                                                         of the audit of JTPA Title II-A program accomplish-
Legal arguments disputing OIG's position on ques-
tioned costs of $449,571 for improper contract changes                   ments developed and conducted at the Ventura County,
were submitted in response to the draft report. The                      California SDA. Field work has started at the Tacoma-
auditee also maintained that it has an effective monitor-                Pierce County Employment and Training Consortium
                                                                         in Tacoma, Washington, and at the Berks County,
ing system.                                                              Pennsylvania, SDA.
The OIG still believes the auditee             entered   into im-
proper contracts only to shore up GFOIC's cash flow.                     In compliance with auditing standards which require
The findings and recommendations remain unchanged,                       that the OIG work with interested parties to agree on
                                                                         appropriate audit criteria when criteria do not exist,
                                                                         ETA officials were requested to assist us in more
Big Five Community Services, Inc.                                        precisely defining audit objectives and criteria. The
(Audit Report No. 06-90-001-03-340,   issued 9/28/90)                    OIG also believes it is in the Department's best interest
                                                                         to assist in developing audit criteria for DOL programs
The Big Five Community Services, Inc. (Big Five), a                      when criteria are lacking. However, ETA officials have
nonprofit corporation located in Durant, Oklahoma,                       advised that ETA is not currently in a position to de-
serves as the JTPA SDA for southern Oklahoma. The                        velop specific policies/criteria in areas of OIG interest;
OIG conducted a review to determine whether JTPA                         there is no legislative requirement to impose such re-
funds were expended in accordance with applicable                        quirements; and the Private Industry Councils (PIC)
laws and regulations,                                                    are responsible for determining who is to be served and
                                                                         how.
The review revealed serious program abuses and ap-
parent conflicts of interest at the SDA. The SDA used
its close relationship with companion programs and an-                   SPECIAL TARGETED          PROGRAMS
other local nonprofit organization in the community to
                                                                         Title IV of JTPA covers federally-administered       pro-
award contracts which overcharged the JTPA program
for office space, rental costs, equipment usage, and                     gramswhichprovidejobtrainingtoeconomicallydisad-
other administrative costs. In addition, the OIG found                   vantaged, unemployed, or underemployed special tar-
unallowable or inappropriate program activities per-                     get groups. It also authorizes job training programs or
formed which were unnecessary for the proper admini-                     services which are most appropriately administered at
stration of the JTPA program. Other State and Federal                    the national level and which are operated in more than
                                                                         one State.
programs run by Big Five were being similarly over-
charged.




                                                                    13
During this period, work was completed in Indian and                       addition NUIC and NIBC have interlocking               Boards of
Native American programs, Job Corps, and National                          Directors.
Activities.
                                                                           In prior reports, the OIG identified serious and flagrant
                                                                           program abuses and conflicts of interest by NUIC, in
INDIAN AND NATIVE AMERICAN PROGRAMS                                        general, and by NUIC's Chief Executive Officer, in
                                                                           particular. Prior audits of NUIC, based on ETA re-
Title IV, Part A of JTPA              authorizes     programs   for
                                                                           quests, coupled with the results of the most current au-
Indian and Native Americans.      Contrary to programs                     dit, now bring total audit findings to over $1.1 million.
under JTPA Titles II and III, these programs are                           ETA has already disallowed more than $1 million,
directly administered at the national level by ETA.                        relating primarily to conflict of interest issues. ETA
                                                                           terminated its grant relationship with NUIC in 1989.
While grantees are covered under the auspices of the
Single Audit Act, the OIG continues to respond to
management requests for reviews of program results,                        TECHNICAL ASSISTANCE AND TRAINING
economy and efficiency, or because of complaints of                        RESEARCH AND DEMONSTRATION   PROJECTS:
program abuse. In work completed this period, the                          NATIONAL ACTMTIES
OIG questioned $440,318 in expenditures from grants
awarded to Indian and Native American programs.                            JTPA authorizes funds for research and demonstration
                                                                           projects, pilot projects and technical assistance and
National   Urban Indian Council (NUIC)                                     training programs. During this period, the OIG com-
(Audit Report No. 18-90-033-03-355,    issued 9/28/90)                     pleted projects related to Opportunities Industrializa-
                                                                           tion Centers of America, Inc. (OIC/A)      at both the
In an audit of NUIC, doing business both as the Georgia                    national and local levels. The most serious findings in
Association of Native Americans and the Delaware                           the national grants are reported below. The results of
Indian Council, covering July 1987 through June 1989,                      the Greater Flint (Michigan) OIC/A audit are reported
the OIG questioned 33 percent ($322,702) of the total                      above.
JTPA expenses reported ($978,534), primarily for less-
than-arms-length transactions (i.e., each party is acting                  OIC/A is a nonprofit organization established            in 1964,
in his/her own self-interest to the matter at hand) and                    chartered to provide training and job creation           services
improper expenses,                                                         to the poor and unemployed. It accomplishes             this task
                                                                           primarily via 70 alTdiates, or job training centers,    through-
NUIC contracted with six firms to provide various                          out the United States. Each affiliate is autonomous         and
training services and materials to JTPA participants at                    is incorporated independently.
a cost of $128,717. All of these contracts violated the
JTPA conflict of interest regulations and consisted of                     Under two ETA national grants covering the period
less-than-arms-length  transactions with business asso-                    between December 1983 and June 1989, OIC/A pro-
ciates of NUIC's Chief Executive Officer.                                  vided technical assistance and training to OIC/A's
                                                                           affiliates through several mechanisms including work-
NUIC also entered into lease agreements which were                         shops and classes, on-site visits, preparation and dis-
less-than-arms-length transactions for office space and                    semination of technical "how to" manuals and informa-
word processors. Total questioned costs are $22,000.                       tion bulletins concerning various aspects of JTPA and
Finally, NUIC improperly used Federal funds for un-                        other job training materials and legislation. In addition,
specified purposes, undocumented    travel costs for its                   OIC/A also received a grant from the Women's Bureau
Board members, and unsupported retainers to its attor-                     covering September 1987 through November 1989, to
ney. Total questioned costs are $116,593.                                  support a"demonstration     job training project" for low-
                                                                           income women.
From 1983 to the present, ETA's Division of Indian and
Native Americans entered into grant agreements with                     In a draft financial audit report issued in August 1990 to
NUIC and the National Indian Business Council (NIBC),                   OIC/A and a management report issued to ETA, the
a related entity, to provide various training and employ-               OIG noted that OIC/A has longstanding serious finan-
ment services to Native Americans. The Chief Execu-                     cial and cash management         weaknesses, despite re-
tive Officer of NUIC was also the President of NIBC. In                 peated ETA monitoring.



                                                                      14
Draft Financial Audit Report                                       Seattle OIC/A and King County
                                                                   Employment and Training
Of the $7.9 million in direct costs claimed by OIC/A for
the three grants during the audit period, $802,761 was             In September 1990, after exhausting departmental col-
questioned primarily I:e.cause OIC/A improperly charged            leetion efforts, ETA referred cases against Seattle OIC/
DOL for the labor costs of its management and admin-               A and King County Employment and Training to the
istrative personnel while they worked on non-DOL pro-              Department of Justice for debt collection. The total
grams.    OIC/A officials stated that they could not               amount involved, which exceeds $500,000, is the result
allocate overhead costs to all programs because their              of two OIG audits in 1983.
non-DOL grants and contracts were written in such a
manner that those funding sources would not pay for
overhead costs. The OIG is particularly concerned                  JOB CORPS
because so many of the costs incurred had no relation-
ship to the grant and believes that it is highly improper          The Job Corps program is operated under Title IV Part
for DOL to absorb such costs.                                      B of JTPA and is designed to serve primarily impover-
                                                                   ished and unemployed youth between ages 16 and 21.
                                                                   Comprehensive training in basic and vocational educa-
Management Report                                                  tion, work experience, counseling, and enrichment ac-
(Audit Report No. 18-90-031-07-735,   issued 8/16/90)              tivities are provided at both Federal and contractor
                                                                   administered centers. After training, corpsmembers
The OIG's management report recommended that
                                                                   are provided placement assistance for up to 6 months.
ETA continue its suspension of the letter of credit
                                                                   Job Corps Fiscal Year 1990 budget is approximately
privilege until a followup audit is conducted in Decem-            $767 million. In Program Year 1989, an estimated
ber   1990 toand
reconciled     determine
                  accountedwhether
                             for the OIC/A    has noted.
                                     differences  properly         113,573 corpsmembers were served.

                                                                   Job Corps Program Result Statements and Auditors'
Recurring Deficiencies                                             Compilation Report for Program Years 1987 and 1988
                                                                   (Audit Report Nos. 03-90-062-03-370   and 03-90-065-03-370,
In December 1988, ETA identified several financial and             issued 9/24/90)
cash management areas in which OIC/A was found to
be deficient in meeting Federal requirements for the               As part of the OIG's continuing audit efforts in the Job
management of grant awards to nonprofit organiza-                  Corps program, the OIG compiled consolidated pro-
tions. Since then, two followup reviews by ETA found               gram result statements for the Job Corps program as a
that only minimal activity had occurred to correct the             whole and for each Job Corps center for Program Years
issues raised in the December 1988 review.                         1987 and 1988.

High-Risk Grantee                                                  The statements have not been audited and, accordingly,
                                                                   the OIG expressed no opinion nor provided any other
After discussion with ETA, the OIG recommended that                assurances on them. However, the OIG is auditing
OIC/Abe designated a"high-risk" grantee and that, as               Program Years 1988 and 1989 statements during cur-
specified in 29 CFR 97.12, ETA impose special condi-               rent fieldwork at 31 Job Corps centers.
tions or restrictions. ETA agreed with the findings and
recommendations,       while OIC/A generally disagreed             The compilation      reports   contain the following state-
with them. However, OIC/A stated that it was willing               ments:
to develop final indirect cost rate proposals for the years
1984 through 1989.                                                 1. Statement of Human Resources presents the total
                                                                   number of participants being served and their average
In August 1990, OIC/A appointed a new president,                   length of time in the program.
ETA representatives have already met with him and
enumerated the specific areas of concern for which they            2. Statement of Program Outputs categorizes the partici-
have required OIC/A to develop and submit a correc-                pants that have left the program by placement and non-
tive action plan within 30 days. The president advised             placement.     Placement categories include entering
that he shared DOL's concern about the gravity of the              employment, school, or the military. Nonplacement
situation,                                                         categories include those participants who have not been



                                                              15
placed or whose placement status is unknown. Also                 tion at the centers. While the centers were following
presented for each placement and nonplacement cate-               Job Corps record retention policies, the retention pe-
gory are the number of students with learning gains and           riod was not long enough to cover the period audited.
GEDs attained during participation in Job Corps' edu-
cational programs.                                                In addition, Job Corps did not have consistent record
                                                                  retention policies for its financial and programmatic
3. Statement of High School or GED Attainment and                 records. Job Corps agreed with the recommendation
Program Ou_outs categorizes the participants who have             and plans to revise the Job Corps Policy and Require-
left the program by placement and nonplacement cate-              ments Handbook to establish clear, consistent record
gories and whether the participant had a high school              retention policies and procedures.
diploma or GED at enrollment or attained them at the
center.                                                           Data Verification Is Needed In Center Review
                                                                  Procedures
4. Statement of Learning Gains and Program Outputs
presents the number of students with learning gains               Job Corps directives do not require regional offices to
attained during their participation in Job Corps' educa-          verify reported reading and math learning gains with
tional programs by the participants' placement and                their source documentation (ETA Form 6-40, test answer
nonplacement categories,                                          sheets and GED transcript) during annual center re-
                                                                  views. Without such periodic reconciliations, simple
5. Statement of Training Received and Employment                  errors, omissions or inaccurate reporting can go unde-
Matches presents the number of participants trained at            tected. The potential effect is distortion of center
the Job Corps centers by occupation. Also included are            performance statistics and overall program outcomes
the number of participants placed in employment and in            recorded by the Performance Measurement System.
an occupation related to the training received.
                                                                  Job Corps agreed with the recommendations                and will
6. Statement of Performance Standards Accomplish-                 revise its Center Review Guide accordingly.
ments presents Job Corps performance standards for
placement, retention, reading and math gains and GED
attainment.                                                       Cost Allocation Plans
                                                                  and Indirect Cost Rates
Job Corps Basic Education Review
(Audit Report No. 03-90-032-03-370,   issued 7/24/90)             A potential indirect cost savings to the Government of
                                                                  $3.5 million could result from indirect cost audits of Job
At Job Corps' request, the OIG performed a survey to              Corps contractors which were completed by the OIG in
determine the reliability of the Performance Measure-             the last 6 months. The current audit exceptions can be
ment System (PMS) statistics for the Basic Education              attributed primarily to unallowable expenses (or unal-
Program. Based on limited review, the OIG believes                locable costs under applicable Federal regulations)
the reading and math gains and GED attainment re-                 contained in the indirect cost pools and inappropriate
porting system is adequate to ensure reporting accu-              allocation bases. Examples of questioned costs follow.
racy, except for the following weaknesses.
                                                                  Homebuilders Institute (HBI)
Record Retention Policies Need To Be Revised                      (Audit Report Nos. 18-90-010-07-735,   issued 7/16/90,
                                                                  and 18-90-028-07-735,
                                                                                     issued7/30/90)
Based on limited review at four centers, the OIG found
that documentation supporting the reading and math                The audit of HBI, a not-for-profit corporation under
learning gains and GED attainment was not always                  the aegis of the National Association of Homebuilders
available for review and the test results could not always        (NAHB), covered direct and indirect costs for Fiscal
be verified to the ETA Form 6-40, Student Profile, used           Years 1987 and 1988. In addition, the OIG completed
by Job Corps to record students' achievements in the              a followup review on HBI's Fiscal Year 1986 costs. The
program. Similar findings were noted earlier by OIG's             Job Corps contract with HBI calls for HBI to conduct
special program abuse reviews. Job Corps had varying              training and coordinate job placement programs for
record retention policies for maintaining reading and             Job Corps students in homebuilding trades and skills.
math learning gains and GED attainment documenta-                 HBI (or its parent organization, NAHB) has been



                                                             16
performing these types of services for several years.              For 1986, 1987, and the first 7 months of 1988, CSDC
Costs have amounted to more than $8 million per year               was the Education Division of the Singer Company. In
and the current contract is $10,400,000.                           July 1988, the division was sold to Integrated Resources,
                                                                   Inc. With the exception of minimal general oversight
For the 1987-1988 period, the combined effects of costs            assistance provided by Integrated Resources, Inc., CSDC
questioned, the reclassification of direct costs of the Job        operates as a stand-alone corporation.
Corps contract to indirect costs, and a change in the
allocation base (from direct personnel costs to total              The OIG audited CSDC's indirect cost rate for Calen-
direct costs) total over $1.7 million. As a result, the            dar Year 1988, and audited selected costs for Calendar
CPA issued an adverse opinion, stating that the State-             Years 1986 and 1987, related to the indirect cost rates
ment of Costs do not fairly present the claimed costs for          for those years.
Fiscal Years 1987 and 1988. This opinion on questioned
costs is being challenged by HBI.                                  Audit exceptions for the 3 years totaling $1,212,916 con-
                                                                   sisted of questioned costs of $987,916; reductions to in-
In June, the OIG alerted ETA to the questioned costs               direct costs of $26,000 for the 1986 Defense Contract
which warranted appropriate action to preclude their               Audit Agency (DCAA) audit; and $199,000 for Calen-
continued incurrence under HBI's follow-on contract,               dar Years 1987-1988 costs pending a DCAA audit. The
                                                                   OIG also recommended        an increase to the base for
In July, ETA entered into a 1-year contract (with 2                direct costs improperly claimed as indirect costs of
renewal option years) with HBI which addressed the                 $590,000. The dollar impact of the findings is $1.17
audit findings in negotiating the new contract and incor-          million on Job Corps and $42,000 on JTPA.
porating restrictive clauses to deter further abuses. The
new contract was reduced by almost $1 million a year.              Major findings include CSDC improperly including in
In addition, it is estimated that ETA avoided incurring            its indirect cost pool costs: resulting from the sale of
$500,000 to $800,000 in expenditures as a result of cost           Singer's Education Division to Integrated Resources,
containment duringthe 1-year contract extensions while             Inc.; for specific contracts; for parent corporation over-
the followon contract was being negotiated.         These          head; and for bonuses which were unallowable either
actions should result in cost recoveries and cost avoid-           because they pertained to fixed price contracts, were
ance totaling about $5 million,                                    chargeable to specific contracts, represented bonuses
                                                                   applicable to prior years, or the bonus plan was not
HBI disagreed with most of these audit findings and the            approved. CSDC disagrees with most of the reported
audit resolution process is under way.                             findings and the audit resolution process is under way.

In the followup review of HBI's Fiscal Year 1986                   Due to these findings, the auditors issued an adverse
indirect costs, the OIG questioned $276,723, of which              opinion, stating that the indirect costs proposed for CYs
$246,095 relates to indirect costs and $30,628 to direct           1986-1988 do not fairly represent indirect costs.
costs of the Job Corps contract. Because the review was
limited to agreed-upon procedures, it did not identify all         DMJM/HTB-JV
the questioned costs that might have been included in              (Audit Report Nos. 18-90-025-07-735
                                                                                                    and 18-90-026-07-735,
the costs incurred by HBI during Fiscal Year 1986. The             issued 7/19/90)
findings are similar to those reported above: profes-
sional services, unapproved salary increases and bo-               DMJM/HTB-JV       is a joint venture organized by the two
nuses, travel, meal functions, and income not credited             joint venture partners, Daniel, Mann, Johnson, and
to the indirect cost pool, as required.                            Mandenhall (DMJM) and HTB, Inc., and its opera-
                                                                   tions are wholly dedicated to providing architectural
Career Systems Development Corporation (CSDC)                      and engineering management services to Job Corps.
(AuditReport No. 18-90-013-07-735, issued 7/30/90)                 The joint venture is staffed by employees of DMJM,
                                                                   HTB, and two subcontractors of the joint venture. Of-
Under contract with DOL, CSDC operates 12 Job                      rice of Job Corps (OJC) awarded a 1 year cost reim-
Corps centers, providing education, vocational training            bursement, fixed fee contract to DMJM/HTB-JV         with
and related support services for approximately 6,400               an option to extend the contract for four additional 1-
students at any one time. These are cost reimburse-                year periods. The total contract, if all option years are
ment contracts containing a provision for indirect costs,          exercised, will exceed $40 million.



                                                              17
The OIG evaluated the reasonableness of DMJM/                             Unemployment Insurance Service (UIS) of ETA is
HTB-JV's methodology to charge direct and indirect                        charged with ensuring proper and efficient administra-
costs under the OJC contract. Based on the review, the                    tion of the U! program.
OIG has serious concerns about the methodology used
byDMJM/HTB-JV          to (1) allocate certain costs such as
                                                                          SESA Investment of Unemployment                Insurance   Funds
fringe benefits, indirect costs, and general administra-                  (Audit Report No. 04-87-830-03-325,   issued 8/8/88)
tive expenses; and (2) appropriately         separate DOL
work from other work for indirect cost allocations. The
                                                                          In August 1988, the OIG reported that the States' Un-
review results were provided to the Department.                           employment Trust Funds are losing as much as $15
                                                                          million annually in potential interest income because
Technical Assistance       Group, Inc. (TAG)                              ETA prohibits States from investing "float" generated
(Audit Report No. 18-90-022-07-735,    issued 9/28/90)                    in the unemployment benefits disbursement process.
                                                                          "Float" is the period between the time that benefit dis-
TAG provided real estate management support serv-                         bursements are made by the States and the time that the
ices to Job Corps under a cost-plus-fixed-fee contract                    payment instruments are returned to the bank or State
estimated to cost $1,277,305 over 3 years. The OIG                        treasury for redemption.    Float, even if available only
audited the direct costs claimed for reimbursement cov-                   overnight, has significant earnings potential.
ering the period between August 1986 and September
1989 and also audited TAG's indirect cost submissions                     The OIG affirms its recommendations              that ETA allow
for Calendar    Years 1986-1988.                                          the States to take advantage of more effective cash
                                                                          management alternatives, includinginvestment of bene-
The audit resulted in $112,480 of indirect costs (61                      fit payment account float, and establish systems and/or
percent of the proposed final indirect costs) and $75,805                 regulations which will assure that investment earnings
of the direct costs being questioned.        Most of the                  are returned to the Trust Fund. ETA and the OIG have
questioned costs resulted from a number of situations                     yet to reach agreement       on this issue.
and transactions which, taken collectively, revealed
what the OIG concluded to be a pattern of program                         In May 1990, ETA published for comment a Federal
abuse byTAG. Those questioned costs accrued directly                      Register Notice outlining a revised cash management
to the benefit of TAG's president and his family, such as                 program for State unemployment funds, including the
the costs of family vacations and other personal ex-                      use of overnight float in conjunction with other funds in
penses being run through corporate expense accounts,                      a system of controlled compensating bank balances es-
                                                                          tablished by the State to defray banking costs.
Due to the reported        fmdings, the auditors         issued an
adverse opinion for the direct costs claimed and the                      ETA has been considering the extensive comments that
indirect costs proposed for the audit period. In addi-                    resulted from this Notice. In the interim, Congress
tion, based on the audit results, ETA terminated TAG's                    enacted governmentwide cash management legislation
new "follow-on" contract in September 1990 by not ex-                     (H_R. 4279), authorizing the investment of benefit payment
ercising the first option year under the contract,                        account float and requiring the return of investment
                                                                          earnings less related banking costs. Authorization for
TAG disagrees with most of the findings and the audit                     investment of float, long recommended by the OIG,
resolution process is under way.                                          should provide a legal framework for the resolution of
                                                                          this longstanding disagreement.     In view of this legisla-
Unemployment Insurance Program                                            tion, ETA will reexamine entirely its proposed               ap-
                                                                          proach as published in May.
The Social Security Act of 1935 authorized the Unem-
ployment Insurance (UI) program which is a unique                         UI QUALITY CONTROL               MONITORING
Federal-State partnership that is based upon Federal
law, but is implemented through individual State legis-                   The UI Quality Control (UI-QC) was envisioned as a
lation,                                                                   major vehicle for the Department to aid the Secretary of
                                                                          Labor in fulfilling the statutory responsibility for UI
This program is administered          by the State Employment             program oversight. The UI-QC program is designed to
Security Agencies (SESAs).            At the Federal level, the           measure the performance of States in meeting their



                                                                     18
individual laws, policies and procedures. UI-QC was              User Charges Could Recover Full Costs
intended to be comprehensive in scope to include bene-           of Foreign Labor Certifications
fit payments, denied claims and tax collections.
                                                                 During a review of ETA's foreign labor certification
To date, only benefit payments (benefits QC) is fully            functions, the OIG noted that ETA did not impose user
operational. Annual reports for Calendar Years 1988              fees for processing and issuing all labor certifications
and 1989 have been issued presenting the error rates             for foreign workers. Such a fee is authorized by 31
and corrective actions by each State. Denied claims              U.S.C. 9701, "Fees and charges for Government serv-
(denial QC) has had various pilot activities but pres-           ices and things of value," and required by Presidential
ently is on hold awaiting resource and policy decisions          policy, prescribed by OMB Circular A-25, "User
by UIS. Tax collections (revenue QC) is presently being          Charges."
refined and the OIG has been asked by UIS to comment
on its revenue QC procedures.       UIS plans to test            Program costs for the foreign labor certification func-
revenue QC in several States in 1991 or 1992.                    tions exceeded $102 million from Fiscal Years 1988
                                                                 through 1990. During this same period, it is estimated
Due to tightening of available resources, UIS is propos-         ETA's recovery of program costs was less than $2
ing a study which would develop the future direction for         million, via nominal service fees charged in one of the
UI-QC.                                                           certification programs. ETA's failure to impose user
                                                                 fees to the extent authorized by law and required by
While funding resources will have a major impact upon            Presidential policy resulted in the Treasury not collect-
the UI-QC program's expansion (or contraction), the              ing an estimated $100 million in revenues between
OIG's overriding concern is whether UI-QC will evolve            Fiscal Years 1988 through 1990.
into the comprehensive system encompassing the entire
UI program. The OIG believes that UI-QC is the pri-              The OIG has recommended         that ETA immediately
mary vehicle for measuring the accuracy and efficiency           implement full cost recovery service fees for all foreign
of State UI administrative procedures to aid the Secre-          labor certification programs to prevent significant reve-
tary of Labor in carrying out her responsibilities for UI        nue losses in the future and to make the labor certifica-
program oversight,                                               tion programs self-sustaining.

The OIG's efforts are directed at ensuring an effective          ETA responded     that the recommendation:
and comprehensive UI program. The OIG will con-
tinue to work with UIS to review the benefit QC                      . . . fails to recognize political reality. ETA'sex-
program and to develop the denial and revenue QC                     perience in implementing an employer fee for
procedures,                                                          the H2A program is illustrative of the prob-
                                                                     lem. The statute creating the H2A program
STATE EMPLOYMENT             SECURITY       AGENCIES                 specifically authorizes DOL to charge a fee.
(SESAS)                                                              During the regulation drafting process, DOL
                                                                     conducted a survey of regional offices to deter-
SESAs administer Federal and State unemployment                      mine time and expenses involved in processing
                                                                     and granting labor certifications.  After the
compensation laws and programs and operate the public
employment service, a national system providing no-fee               survey and analysis of costs, DOL derived an
employment services to individuals seeking employ-                   average for the administrative costs involved in
ment and employers seeking workers. The unemploy-                    handling an H2A application. This "average"
ment compensation program operates through a Fed-                    cost (based on realistic expenses) was included
eral-State cooperative relationship in which the major               in a draft of program regulations circulated to
functions performed by the States are the collection of              Key Congressional staff and interest groups
State taxes from employers, determination of benefit                 for reaction and comment. The reaction was
entitlement, and payment of benefits. Federal funds to               extremely negative, and DOL was forced to
administer the labor exchange system are provided by                 considerably scale back the level of the fee in
statutory formula to the States.                                     order to accommodate political concerns which
                                                                     threatened more important worker protection
                                                                     provisions of the regulations.




                                                            19
ETA Fiscal Year 1989 Financial Statements                           While the information presented by ETA, if substanti-
(Audit Report Nos. 12.90-009-03-001,   issued 3/30/90,   and        ated, would reduce the advance account balance, it
12-90-0174134101,
              issued 9/28/90)                                       points to an absence of effective internal accounting
                                                                    controls. Since 1986, the auditors' reports on ETA's fi-
ETA's consolidated statements of operations for the                 nancial statements contained a qualification due to
Fiscal Years ended September 30, 1989, and 1988, were
                                                                    ETA's failure to reconcile the general ledger advance
audited. The audit covered: $6.1 billion each year in
                                                                    balance with subsidiary records. Auditors' reports on
expenses for grants, subsidies and contributions, pri-              ETA's internal accounting controls have contained
marily with various state and local governments and                 findings relating to this deficiency.
nonprofit organizations; and expenses for unemploy-
ment benefits incurred by SESAs in the amounts of $17               In the Fiscal Year 1990 audit, the OIG will verify the ad-
billion and $13.7 billion, respectively,                            ditional information provided by ETA.

The independent auditors' report on consolidated fi-
nancial statements, issued in March, contains a quali-
fied opinion for the lack of accounting records to                  Accountability for Fiscal Year 1982
determine accrued state and Federal unemployment in-                Disabled Veterans' Outreach Program        (DVOP)
surance taxes due at September 30, 1989, and the lack of
subsidiary records to support advances made to the                  In the March 1988 Semiannual Report, the OIG re-
public, grantees and contractors,                                   ported that several States did not fill mandatory DVOP
                                                                    specialist staffing levels for Fiscal Year 1982. A total of
During this period, the OIG issued the independent au-              14 audits questioned approximately    $2.7 million for this
ditors' report on internal controls and on compliance               and other compliance issues.
with laws and regulations. This report complements the
final report on ETA's Fiscal Year 1989 financial state-             Fiscal Year 1982 was the last year in which ETA
ments. The report notes four material internal control              administered DVOP; it was subsequently transferred to
deficiencies relating to (1) cash management controls               the Veterans' Employment and Training Service in
over grantee advances, (2) grant and contract manage-               Fiscal Year 1983.
ment, (3) procedures for valuing Unemployment Trust
Fund (UTF) receivables, and (4) accounting controls                 During audit resolution of these reports, the OIG dis-
over the Federal Employees' Compensation        (FEC)               agreed with ETA's proposed management decisions.
Account.    Deficiencies regarding grant and contract               As a result, GAO's Office of General Counsel was
management, UTF receivables and the FEC Account                     requested to clarify the States' responsibilities under
have continued from prior years,                                    the DVOP statute, P.L. 96-466.

Cash Management         Controls Over Grantee Advances              The issue was whether the States should be accountable
                                                                    for repaying monies to the Department for funds made
Based on ETA's accounting records at September 30,                  available to create DVOP specialist positions but ex-
1989, the departmental general ledger advance account               pended on non-DVOP activities.
indicated outstanding advances of $954 million after
audit adjustments, 87 percent of which had been ad-             GAO concluded that, although the law required States
vanced to JTPA grant recipients. These accumulated              to hire a particular number of DVOP specialists, De-
JTPA advances had increased 84 percent from the $449            partment regulations instructed the states to finance
million reported in Fiscal Year 1988 and appear to in-          DVOP using the base Employment Service grant and
dicate that the grantees retained cash far in excess of         did not earmark a specific funding level for DVOP.
their immediate cash needs, resulting in interest losses        Further, grantees were only constrained to use grant
to the Federal Government.                                      funds in a general sense, i.e., for a variety of employ-
                                                                ment services competing for limited funds. Although
As a result of this finding, ETA further analyzed the ad-       the DVOP specialist positions went unfilled, the Fiscal
vance account balance and tentatively concluded that            Year 1982 grant funds did not lapse and were used for
accrued expenses for grants, subsidies and contribu-            grant activities. Accordingly, GAO saw no basis to
tionswere understated at September 30, 1989, and that,          recoup the expenditures, as long as the funds were
consequently, advances were overstated,                         expended for otherwise eligible grant activities.




                                                               2O
In a separate audit of the Virginia Employment Corn-               The revised guide makes significant progress toward
mission's (VEC) DVOP (Audit Report No. 11-6-061-                   providing a full generally accepted auditing standards
03-325, issued 9/18/86), ETA originally agreed with                (GAAS) audit for pension and benefit plans by reflect-
OIG's conclusions. VEC appealed, then settled and                  ing requirements contained in recent Statements on
paid $179,124 in August 1988. However, the result of               Auditing Standards (SASs). These SASs relate to the
GAO's subsequent finding--that,       for DVOP, no basis           auditor's responsibility to detect and report errors,
exists for questioning the expenditure of funds spent for          irregularities and illegal acts, and to examine internal
otherwise eligible activities -- would have relieved VEC           controls.
of liability for the misspent funds. As a result, ETA
revised its management decision on VEC and has since               The OIG and PWBA are currently working to resolve
returned $179,124 to Virginia.                                     the remaining issues surfaced in the November 1989
                                                                   report on pension plan audits: (1) establishing parties
ETA's accountability over the States' use of DOL funds,            separate from plan management to oversee plan audits
particularly during transitional periods or when new               on behalf of participants; and (2)direct reporting ofsig-
programs are being established, is essential to achieving          nificant ERISA violations and events by plans.
policy goals. Specifically, ETA needs to ensure when
starting up new programs that (1) grantee responsibili-            Positive Response Continues From Prior OIG Report
ties are clearly delineated within grant agreements and            on Quality of IPA Audits of Employee Benefit Plans
supplemented by regulation; (2) funding amounts are
specified in the grant agreement; and (3) program goals            Work performed during the OIG's review of the quality
are specified in level of services to be provided,                 of IPA audits of pension and welfare benefit plans
                                                                   covered by ERISA identified substandard work per-
The OIG requested that ETA advise what controls are                formed by the IPAs. The IPAs were referred to PWBA
planned to ensure that accountability is maintained in             for appropriate action, including further referral to the
future agreements with grantees and contractors.                   AICPA. PWBA has made significant progress and we
                                                                   commend the AICPA for taking appropriate actions on
                                                                   those referrals. In August 1990, the OIG and PWBA
PENSION         AND      WELFARE            BENEFITS               met with the AICPA and were able to discuss the
ADMINISTRATION            (PWBA)                                   disposition of the first 10 of these referrals. In general,
                                                                   the AICPA agreed with the OIG's findings of substan-
PWBA carries out the Department's    responsibilities              dard work. The AICPA's objective in the resolution of
under Title I of the Employee Retirement Income                    the referrals was one of rehabilitation, by requiring the
Security Act (ERISA) and certain provisions of the                 IPAs to complete 40 or more hours of continuing
Federal Employees' Retirement System Act of 1986.                  education in ERISA audits and other related audit
PWBA isresponsible for regulatory, enforcement, re-                areas. Some of the referrals were recommended for
search, and reporting and disclosure functions. PWBA's             suspension.
oversight of employee benefit plans impacts on the
protection of over 65 million individuals and over $2              Also, the AICPA recently announced the Inaugural
trillion in assets, about one third of the nation's invest-        AICPA/DOL Conference on Employee Benefit Plans.
ment capital. For Fiscal Year 1990, PWBA's author-                 This is a direct result of positive combined efforts of the
ized staffing is 505 and its budget is $43.8 million.              AICPA and PWBA.

Draft ERISA Audit Guide Issued
Other Problems with Plan Audits Still Unresolved                   EMPLOYMENT     STANDARDS
(AudllReport No.09-90-001-12-001,
                               issued 11/9/89)                     ADMINISTRATION    (ESA)

The AICPA issued the draft of the proposed "Audit and              ESA coordinates a variety of programs protecting the
Accounting Guide - Audits of Employee Benefit Plans"               basic rights of workers, including minimum wage and
for comment on August 31, 1990. This is a culmination              hour standards, various workers' compensation pro-
of the combined efforts among the AICPA, the OIG,                  grams, and equal employment opportunity and affirma-
and PWBA during the past year to produce a revised                 tive action programs for employees of Government
ERISA audit guide. The OIG and PWBA are reviewing                  contractors.   ESA includes the Wage and Hour Divi-
the exposure draft and providing comments to the                   sion, the Office of Workers' Compensation Programs
AICPA.                                                             (OWCP), and the Office of Federal Contract Compli-
                                                                   ance Programs (OFCCP).
                                                              21
ESA is the second largest program agency in the De-                maximum penalty potential of $2.4 million) -- 7 DBRA,
partment in terms of expenses. For Fiscal Year 1990,               3 FECA, and 2 JTPA. Of these cases, the Solicitor has
budgeted positions and dollars for ESA salaries and                completed its legal sufficiency review and referred 5 of
expenses were 4,043 and $246 million, respectively,                the 12 cases to the Justice Department.      Justice has
Approximately $1.459 billion was paid out in Federal               approved prosecution on 4 of these cases.
employees' compensation benefits and $573 million in
Black Lung disability benefits.                                    During this period, the first DOL PFCRA case was
                                                                   settled. On September 21, a verbal settlement agree-
The PIG completed work on FECAL Third Party Re-                    ment (subsequently finalized in October 1990) was
coveries and continued investigations into potential               reached with the defendants in one of the DBRA
Program Fraud Civil Remedies Act cases relating to the             PFCRA cases: a California construction firm perform-
Federal Employees' Compensation Act and Davis Bacon                ing work under a U.S. Navy contract. Under the agree-
and Related Acts (DBRA) during this semiannual                     ment, the defendants admitted guilt and agreed to pay
period. After the end of the period, the Deputy Secre-             $40,000 in penalties. The firm submitted false payrolls
tary responded to the PIG's February 1990 request for              to conceal the underpayment of prevailing wages and
resolution of one recommendation       from the PIG's              fringe benefits in violation of wage and hour laws.
nationwide OFCCP report. The point of contention
was whether "underutilization,"     which is critical to           This semiannual period, the PIG referred its seventh
many OFCCP enforcement activities, should be pre-                  Wage and Hour fraud case to the Solicitor for prosecu-
cisely defined by regulation. The Deputy Secretary's               tion under PFCRA. In this case, a contractor is alleged
response can be found in the Appendix to this report,              to have used a scheme involving false statements in
                                                                   order to defraud employees of a portion of their wages
Wage and Hour                                                      and fringe benefits for work performed         on a construc-
                                                                   tion project.
Of ESA's $246 million budget for Fiscal Year 1990,
Wage and Hour uses the largest portion to enforce a                Office of Workers'         Compensation
wide variety of labor standards.                                   Programs
PROGRAM FRAUD CIVIL REMEDIES ACT
CASES IN FEDERAL CONTRACTOR FRAUD                                  FEDERAL EMPLOYEES' COMPENSATION                        ACT
                                                                   (FECA) PROGRAM
The Program Fraud Civil Remedies Act of 1986 (PFCRA)
created a tool which agencies can use to prosecute ad-             FECA is the sole form of workers' compensation avail-
ministratively false claims and statements. Prior to the           able to Federal employees who suffer on-the-job trau-
PFCRA, the remedies used by agencies which had                     matic injury or occupational disease. DOL administers
investigated false claims and statements were generally            the Act, but all Federal agencies influence how effec-
the Civil False Claims Act for false claims, and criminal          tively it operates. In Fiscal Year 1990, FECA's staffing
                                                                   level was 878 with a $51.2 million budget. ESA will pay
prosecution for false statements and claims. If the po-
tential recovery was small, U.S. Attorneys were often              out approximately $1.467 billion for injured Federal
reluctant to prosecute.     With the PFCRA, however,               employees using appropriated funds collected through
agencies need only obtain Department of Justice ap-                chargebacks to other Federal agencies. Approximately
proval before initiating their own administrative proce-           57,000 claimants received long-term benefits and an-
dure to prosecute "smaller" (up to $150,000) false                 other 78,000 Federal employees        filed for continuation
claims and statements,                                             of pay for traumatic, job-related     injuries.

Under the Act and the Department's           implementing          Management Advisory Comments-
regulations, the PIG is assigned the role of Investigat-           FECA Payment Systems
ing Official, while the Solicitor of Labor is designated as        (Audi!Report No. 06-90-002-04-431, issued 7/6/90)
Reviewing Official. Cases are heard before the Depart-
ment's Administrative Law Judge (Presiding Official).              Internal controls over the FECA compensation and
                                                                   medical bill payment systems were reviewed as part of
To date, the PIG has investigated and submitted 12                 the audit of ESA's financial statements for Fiscal Year
cases to the Solicitor of Labor for prosecution (with a            1989.



                                                              22
As a result of the review, the OIG         identified and          OCCUPATIONAL                 SAFETY          AND        HEALTH
reported to management weaknesses in payment con-                  ADMINISTRATION                   (OSHA)
trols over both FECA compensation payments to claim-
ants and payments to medical or other service provid-              OSHA administers programs designed to assure the
ers. Similar weaknesses were reported in ESA's Fiscal              safety and health of workers at their worksites. This
Year 1988 financial statements. OIG also reported                  includes setting workplace regulations and standards
problems with the weekly audit of the Bill Payment Sys-            for a safe and healthful working environment, enforcing
tern.                                                              compliance by inspecting places of employment, and
                                                                   providing occupational safety and health training and
ESA management has taken or plans to take prompt                   education. To administer the program for Fiscal Year
action on the recommendations.
                                                                   1990, OSHA had a staffing level of 2,425 and a $267
                                                                   million operating budget.
FECA Third Party Liability
                                                                   During this semiannual period, the OIG completed an
In this semiannual period, the OIG completed work on               audit of OSHA's Fiscal Year 1989 financial statements.
an audit of the Division of Federal Employees' Com-                The OIG also completed two audits of OSHA New
pensation (DFEC's) systems to identify, process and                Directions grantees.
recover funds from third parties responsible for injuries
to Federal employees.                                              Audit of OSHA's Fiscal Year 1989
                                                                   Financial Statements
DFEC's systems are generally effective in recovering               (Audit Report No. 05-90-035-10-001,   issued 6/28/90)
funds from third parties identified as liable for injuries
to Federal employees. DFEC recovered $5.8 million in               The financial statement audit covered $239 million in
Fiscal Year 1988, $10.6 million in Fiscal Year 1989, and           Fiscal Year 1989 expenses. As part of the financial
$13.2 million in Fiscal Year 1990 from third parties,              audit, an examination was made of OSHA's internal
However, the initial identification process could be               accounting controls, status of prior years' reported
improved.    For example, more effective use of the                material weaknesses, and compliance with applicable
agency's automatedsystemsandavailablemanagement                    laws and regulations.   The auditors' opinion on the
information may have identified an additional $1.8                 financial statements contained a qualification because
million in Fiscal Year 1988 FECA disbursements at-                 records documenting property costs and accumulated
tributable to third parties. While it was not possible to          depreciation were incomplete.
determine what proportion of the $1.8 million might
have been recoverable, identifying third party liability is        The report on internal accounting controls disclosed
a prerequisite  for any recovery of FECA disburse-                 that OSHA's report to the Treasury on accounts receiv-
ments,                                                             able due from the public (SF 220-9) did not include $7.9
                                                                   million in receivables.   This amount included $5.8
DFEC is evaluating the recommendations,                            million of penalties due from contested cases that had
                                                                   been settled. The remaining $2.1 million represented
Program Fraud Civil Remedies Act (PFCRA)                           penalties due where only a portion of the citation was
Cases in FECA                                                      being contested.

This semiannual period, the OIG referred a third FECA              The report on compliance disclosed that 22 percent of
case to the Solicitor of Labor (SOL) for civil prosecu-            the payments sampled were not paid within the 30-day
tion under PFCRA. The case involves an individual                  period required by the Prompt Payment Act.
who worked and received earnings while receiving FECA
compensation payments from OWCP for "total disabil-                OSHA's planned corrective actions were responsive to
ity" and failed to notify OWCP, as required, of employ-            our recommendations      except for those relating to
ment.                                                              improvements needed to more accurately report ac-
                                                                   counts receivable to the Treasury.     OSHA staff will
                                                                   work with us to develop mutually acceptable proce-
                                                                   dures for accounts receivable reporting.




                                                              23
Furniture Workers Division, International Union of              Financial Statements and Opinion
Electronic, Electrical, Salaried, Machine and Furni-            (Audit Report Nos. 12-90-004-07-001,   issued 9/21/90,   and
ture Workers, AFL-CIO, Nashville, Tennessee                     12-90-019-07-001,
                                                                               issued 7/30/90)
(Audit Report No. 03-90-043-10-101,   issued 9/28/90)
                                                                The consolidated statement of financial position and
The OIG issued an audit report on OSHA New Direc-               the related statements of operations, changes in finan-
tions funds granted to the Furniture Workers Division           cial position and reconciliation to budget reports for
(FWD). The audit was for the period of August 1, 1981           Fiscal Year 1989 were audited. The statements provide
through September 30, 1986. The entity has not re-              a summary-level financial report. Supplementary fi-
ceived OSHA grants since 1986.                                  nancial statements are presented for DOL's program
                                                                agencies andfor the various types of funds administered
The audit questioned $126,100 based on missing in-              by DOL.
voices or other inadequate supporting documentation
for disbursements, lack of documentation on the non-            In the auditors' opinion, the consolidated statement of
Federal matching fund requirements and insufficient             fmancial position fairly presents DOL's financial posi-
documentation on travel costs charged to OSHA pro-              tion at September 30, 1989, in conformity with Federal
grams,                                                          generally accepted accounting principles (GAAP), except
                                                                for the following qualifications:
International     Union of Operating        Engineers,
Washington,       D.C.                                          1. Accrued State and Federal unemployment insurance
                                                                taxes due from employers totaling $3.4 billion was
(Audit Report No. 03-90-043-10-101,   issued 9/28]90)
                                                                recorded.  The validity of this amount could not be
At the request of OSHA, the OIG conducted a financial           verified since neither ETA nor the individual states find
and compliance audit of the OSHA New Directions                 it practicable to maintain subsidiary records for individ-
grants issued to the International Union of Operating           ual employers.

Engineers.                                                      2. The general ledger advance account could not be
Out of $1,115,000 received in Federal funds, OIG ques-          reconciled to subsidiary records of grantee and contrac-
tioned $313,263 consisting of $257,974 not expended in          tor advances. Confirmation of individual account bal-
accordance with budgeted cost categories, $19,289 in            ances was not possible and we were unable to attest to
unsupported costs, and $36,000 in undelivered prod-             grantee advances of $954 million shown on the state-
ucts.                                                           ment of financial position.

                                                                Audit tests are restricted to the Federal level. State and

DEPARTMENTAL                  MANAGEMENT                        local costs will be tested under the Single Audit Act.


Departmental     management refers to those activities          "Value-For-Money"              Audits
and functions of the Department which formalize and
implement policies, procedures, systems and standards           Much of the OIG's current work is focused on whether
to ensure efficient and effective operations of adminis-        the public is receiving "value-for-money" from invest-
trative and managerial programs. The Assistant Secre-           ment in departmental programs and the services that
tary for Administration and Management has oversight            are derived from those investments. Performing"value-
                                                                for-money" audits is based on a premise of accountabil-
responsibility,                                                 ity, which rests with management and is spelled out in
                                                                GAO's Government Auditing Standards.
During this audit period, the OIG reviewed activities in
three major areas within departmental management:
(1) Grants and Contracts Management, (2) Financial              This concept of accountability is further reinforced
Management, and (3)Information     Resources Manage-            through various OMB circulars on internal controls,
ment (IRM). The Fiscal Year 1989 DOL Consolidated               productivity and quality improvements, and the man-
Financial Statements were also issued,                          agement of Federal information resources, as well as
                                                                the legislatively mandated Federal Managers' Financial
                                                                Integrity Act.




                                                           24
Outside the Federal community, accountability for services        Performance audits of procured goods and services
of states and local governments is also on the rise. The          finalized during this reporting period indicated that
Government Accounting Standards Board (GASB) has                  contracted studies and demonstration projects are not
undertaken a project to define program accomplish-                consistently evaluated to ensure that expected benefits
ments for various public services (e.g., education, po-           were achieved; contracted services are not clearly re-
lice, road maintenance).      Program accomplishment              lated to the funding sources; contract administration
information would be reported to the public along with            practices are weak; and utilization of products of the
the financial statements to fully account for the respon-         contracts by the program and public are not clearly
sibilities entrusted to public officials,                         demonstrated.

Reviews of the Department's   oversight and manage-               In ETA, the OIG found inadequate monitoring of
ment of contractors and grantees continue to identify             contracts and grants, vague contract/grant      reporting
areas in which the Department can improve both its                requirements, limited distribution of successful proj-
accomplishment reporting and its accountability over              ects models, and deliverables that were of limited use to
various program activities.                                       ETA.

CONTRACTED USE OF ADVISORY AND                                    ETA concurred with the findings and agreed to: de-
ASSISTANCE SERVICES (CAAS)                                        velop a course outline designed for the formal training
                                                                  of monitors; introduce new reporting requirements in
In compliance with Public Law 97-258, the annual                  the statement of work for certain contracts/grants    and
evaluation on the use of advisory and assistance services         direct procurement staff to ensure that statements of
within the Department was conducted,                              work contain appropriate reporting language; realign
                                                                  staffto provide a distribution resource to the public and
CAAS activities are still being misclassified, this time          examine methodologies for developing a management
because they are not being identified as the predomi-             information system to assist in distributing project re-
nate activity under the contract. Therefore, they are             suits; and prepare a policy directive to incorporate the
being underreported   through the Federal Procurement             procedures for compliance with reporting requirements.
Data System.                                                      (Audit Report No. 17-90-014-03-380, issued 7/6/90)

Evaluations of closed contracts are not performed                 in the Office of the Veterans' Employment and Train-
consistently. Such evaluations are required by OMB                ing service (VETS), the OIG found a demonstration
Circular A-120, Guidelines on the Use of Advisory and             project that was not evaluated and the improper ac-
Assistance Services.                                              counting by the National Capital Service Center (NCSC)
                                                                  for funds received from ETA. VETS agreed to ensure
An issue of continuing concern is the dated guidance              that evaluations and monitoring are performed as re-
provided by the Office of Management and Budget                   quired. (Audit Report No. 17-90-012-02-001, issued 8/
(OMB). The current circular was issued in January                 23/90)
1988. A draft clarifying interpretation  was issued in
January 1989 requesting agency comments. To date,                 An interagency agreement between the Bureau of In-
although needed, further guidance or a revised circular           ternational Labor Affairs (ILAB) and ETA resulted in
has not been issued by OMB.                                       using ETA funds to satisfy an obligation to the Interna-
                                                                  tional Labor Organization (ILO). The OIG concluded
                                                                  that this does not clearly relate to ETA's mission. The
Inadequate Contract and Grant                                     Assistant Secretary for Administration     and Manage-
Management        and Administration                              ment (ASAM) indicated that the Secretary should have
                                                                  the flexibility to use departmental    funds to achieve
As reported in the March 1990 Semiannual Report, a                program goals as long as appropriation principles are
variety of issues (e.g., untimely performance monitor-            not violated. He agreed with ETA that these projects
ing, inadequate contract administration, and vague work           are consistent with both the spirit and the letter of
statements) are impacting the effective delivery of goods         JTPA. However, the ASAM issued guidance to the
and services. These concerns are at the center of the             Department on obtaining approval for activities funded
"value-for-money" approach used to audit departmen-               by more than one agency's appropriation and has in-
tal procurement activities,                                       cluded in ILAB's Fiscal Year 1992 budget a request for



                                                             25
funds for ILO initiatives. (Audit Report No. 17-90-013-           should recover about $350,000 plus interest.     In a
07-001, issued 9/28/90)                                           management letter to ETA's Assistant Secretary, the
                                                                  OIG noted that NCOA failed to submit revised closeout
The Bureau of Labor Statistics (BLS) procures data                packages and return funds to ETA as a result of (1) re-
collection and dissemination services for the Current             coveries from subgrantees for audit disallowances, and
Population Survey (CPS) and the National Longitudi-               (2) f'malization of indirect cost rates. NCOA has al-
nal Survey (NLS) at yearly costs of about $18 million             ready sent refund checks to ETA totaling $364,671 for
and $5 million, respectively. With regard to the CPS,             recoveries from subgrantees for the period July 1984
the review found that the interagency agreement with              through June 1988. In addition, NCOA voluntarily re-
the Bureau of Census, which conducts the CPS, served              funded $374,867 to ETA for the same time period on
BLS' need and that the CPS was effectively utilized,              the same grants.

Conversely, the review of the two NLS contracts issued
                                                                  Information Resources Management
to Ohio State University Research Foundation (the
NLS contractor) concluded that they lacked sufficiently
specific goals, measures and results to ensure that these         ECN: Its Uses and Impact
nonstatutory program expenditures were an effective               (Audit Report No. 19-90-010-07-720,   issued 9/27/90)
use of public funds.
                                                                  The Executive Computer Network (ECN), initiated in
Over the last 24 years, $95 million has been expended on          1987, is to provide electronic mail, document exchange,
the NI._, $81 million of that by DOL. Originally, the             and office automation functionality to DOL executive
NLS was started by ETA on a program-specific basis to             staff offices. An audit was conducted in conjunction
gather longitudinal information on retirement and poverty         with the Directorate of Information Resources Man-
issues. The NLS was transferred to BLS during 1987.               agement (DIRM) to determine DOL executives' satis-
BLS now views it as a general purpose survey, primar-             faction with the ECN and whether it accomplished its
ily targeted for academic and long-term research on               objectives. The OIG also reviewed the security and cost
labor market experience issues, and considers it an               of the ECN.
important national resource for research.
                                                                  The OIG found that DOL executives are satisfied with
The Commissioner agreed with most of the OIG's rec-               system performance        and the software provided by the
ommendations to reassess the NLS and improve BLS'                 ECN.
contract administration.

BLS disagreed with the recommendation     on user fees.           Security over the ECN needs improvement in the areas
                                                                  of access controls, personnel security, and risk analysis.
The OIG will continue to negotiate with BLS to encour-
age them to ask for user fees which are consistent with           Access controls were inadequate. Users              fail to change
appropriation   law. (Audit Report No. 17-90-015-11-              passwords, fail to use any password, and            use improper
001, issued 9/28/90)                                              passwords. Some users routinely share               accounts and
                                                                  passwords. Other individuals, no longer              employed by
ETA's current closeout procedures require grantees to             DOL, still had valid user accounts on the system. DIRM
make necessary adjustments when final indirect cost               has agreed to establish and maintain a higher standard
rates are negotiated and/or when grantees receive                 of internal controls surrounding system access.
refunds as a result of audits of their subgrantees. In the
OIG's audit of ETA's grants to the National Council on            Personnel security also needs improvement since three
the Aging(NCOA),discussedbelow,          NCOAwas found            contractors who are LAN Administrators           have not
not to have complied with the above requirements,                 received security clearances. DIRM said that future
                                                                  contracts for computer services will provide for appro-
National Council on the Aging, Inc. (NCOA)                        priate contract staff to have security clearances.
(AuditReportNo.18-90-034417-735,
                              issued9/28/90)
                                                                  While DIRM has a Disaster Recovery Plan, it has not
As a result of an audit of the costs claimed by NCOA              performed an ECN risk analysis. Conversely, it has
under its ETAgrants and immediate followup byETA's                rated the system as "sensitive." DIRM needs to clarify
Office of Grants and Contract Management,         ETA             this apparent contradiction.



                                                             26
                                                         OFFICE OF AUDIT
                                                              Section 2


                                            Financial Management              in DOL

The OIG financial statement audits continue to focus on the Department's stewardship and
accountability over DOL programs. In a related area, the OIG is building on the results of
financial and program statistics audits to construct an accountability model for assessing the
return on social programs' investments in human capital.

Endorsement    of the Administration's    initiatives and           generally accepted accounting     principles   for Federal
congressional proposals for a government-wide         and           Government agencies.
agency level Chief Financial Officer to improve Federal
financial management continues to be supported by the               Constructing an Accountability Model
results of 4 years of financial statement auditing at the           for Human Resource Investment
Department.

Reviews of the Department of Labor Accounting and                   Financial statements present all financial activity (costs,
Related Systems (DOLAR$) have provided compre-                      assets, and liabilities) of an agency in accordance with
hensive audit oversight of the Department's new gen-                established accounting practices.     The OIG believes
eral ledger accounting system. Four reports assess the              that Federal accounting, in the broadest sense, should
compliance of DOLAR$ with regulations, standards                    include program as well as financial results.
and other requirements. Adverse conditions identified
prevent the Secretary of Labor from reasonably assur-               Utilizing a financial statement framework, the Depart-
                                                                    ment, working with the OIG, has achieved this level of
ing that the Department is in compliance with the re-
porting and internal control requirements of the Fed-               reporting and auditing for one of its major programs --
eral Managers' Financial Integrity Act (FMFIA).          In         Job Corps. JTPA, under which Job Corps operates,
addition, if these conditions persist, the OIG may be re-           emphasizes that job training is an investment in human
quired either to render an adverse opinion or disclaim              capital. The report, entitled "Compilation and Analy-
an opinion on the Department's        financial statements          sis of Costs Invested in Human Capital in the Job Corps
for the Fiscal Year ended September 30, 1990. (When                 Program," independently analyzed financial input (costs
the auditors have not been able to obtain sufficient                invested) in relation to program output (statistics on
competent evidential matter to form an opinion, they                program results) for Program Years 1987 and 1988.
must state that they are unable to express an opinion,              These analyses build on previous work for Program
i.e., they issue a disclaimer.)                                     Year 1986. For Fiscal Year 1991, the OIG plans to audit
                                                                    this and related information at selected Job Corps Cen-
Audit of Department of Labor                                        ters.
Consolidated Financial Statements
(AuditReport   No. 12-90-004-07-001,   issued 9/21/90)
                                                                    This accountability model provides a reliable frame-
                                                                    work for evaluating the return on the expenditure of
During this audit period, the OIG issued an audit report            Federal dollars.
on the consolidated financial statements of the Depart-
ment for Fiscal Year 1989.                                          The OIG believes all Federal programs should meet
                                                                    this level of accountability as a meaningful basis for
The final report on the consolidated financial state-               managing the Federal Government. Producing audited
ments reflects assets of $68.6 billion, liabilities of $25.9        financial statements is a necessary first step to achieve
billion, and expenses of $26.1 billion. The report con-             such an accountability level.
tains the opinion that, except for the scope restrictions
concerning taxes receivable of $3.4 billion and grantees'           The Job Corps project is consistent with current Gov-
advances of $954 million, the statements present fairly             ernmental Accounting Standards Board (GASB) initia-
the consolidated financial position of the Department               tives in the area of service efforts and accomplishments
of Labor as of September 30, 1989, in conformity with               indicators.


                                                               27
Service Efforts and Accomplishments                                In April 1990, the Assistant Secretary for Administra-
                                                                   tion and Management asked the PIG to evaluate whether
The GASB is researching ways to provide information                the new system complies with Federal government-
for assessing not only how much and on what an organi-             wide requirements and standards and whether it repre-
zation is spending its resources, but also what we are             sents an improvement over DOL's prior accounting
getting from the use of public funds and how effectively           system, the Integrated Accounting System. Four re-
and efficiently they are spent. The trend clearly is               lated but separate projects provided this interim evalu-
toward more and better accountability, which the GASB              ation: (1) an internal control review, (2) an external
conceives as "being obliged to explain one's actions, to           financial reports evaluation, (3) an acceptance testing
justify what one does; being required to answer to the             review, and (4) a user satisfaction survey.
citizenry -- to justify the raising of public resources and
the purposes for which they are used."                             Both the internal control review and the external finan-
                                                                   cial reports evaluation show that the Department's

Endorsement of CFO Legislation                                     general ledger system (including the internal control
                                                                   structure surrounding the system) does not comply, in
                                                                   certain material respects, with the General Accounting
Several recent legislative and administrative proposals            Office's (GAP), the Department of Treasury's (Treas-
point to continuing improvement in Federal financial               ury) or the Office of Management and Budget's (OMB)
management. Legislative proposals endorsing the concept            regulations and standards.
of Chief Financial Officer for the U.S. and Federal

agencies and annual audited financial statements have              This condition prevents the Secretary of Labor from
been introduced in the Congress. In addition, the Ad-              providing reasonable assurances that the Department
ministration has announced a five point plan containing            is in compliance with the reporting and internal control
the same concepts,                                                 requirements    of the FMFIA.      In addition, if these
                                                                   conditions persist, the PIG may be required to render
The PIG believes strong legislation is preferable and
                                                                   an adverse opinion or disclaim an opinion on the De-
PIG has supported such legislation, e.g., H.R. 5492 and
                                                                   partment's financial statements for the fiscal year ended
S. 2840. The PIG believes that top level program and               September 30, 1990.
fiscal managers must be held accountable for accurate
and complete financial reporting. However, top pro-                The acceptance testing review and user satisfaction
gram and fiscal managers will not be held fully account-           survey demonstrated      that the Department had made
able in the absence of such strong legislation mandating           significant progress in implementing and testing DOLAR$
a Chief Financial Officer having sufficient authority, re-         in the last 6 months.
sponsibilities, qualifications, and resources.
                                                                   A description    of each of these four reports follows.
Audit Oversight of DOL's
General Ledger System Implementation                               INTERIM
                                                                         INTERNAL
                                                                                CONTROL
                                                                                      REVIEW
                                                                   In an interim assessment of the internal control system,
Recent assessments of the Department's new general
ledger system, DOLAR$, found new and continuing                    the following weaknesses were noted:
problems. If the Comptroller does not develop correc-
                                                                   Reconciliation    to Treasury Records
tive strategies, the Department will not be able to
reasonably assure completeness and reliability of vari-
ous generalledger account balances and related finan-              During Fiscal Year 1990, the Department has not
                                                                   reconciled disbursement and receipt transactions to
cial statements and reports.                                       Treasury records. Consequently, the Department can-
In prior years, PIG audits have identified consistent              not assure the accuracy of the general ledger cash and
weaknesses in accounting, internal controls and finan-             expenditure balances. The Department is also exposed
cial reporting. The Department promised that these                 to unnecessary increased risks of duplicate payments of
deficiencies would be corrected by DOLAR$.                         invoices and unrecorded "obligate and pay" transac-
                                                                   tions that could cause an overobligation or expenditure
                                                                   of appropriations,  resulting in an Anti-Deficiency Act
                                                                   violation.



                                                              28
Reconciliation to Program and                                     Further, although DOLAR$ implementation of the
Subsidiary "Feeder" Systems                                       SGL represents a significant improvement over the
                                                                  former Integrated Accounting System (IAS), DOLAR$
The Department has not reconciled the general ledger              has not corrected many of the IAS general ledger
to major program or subsidiary systems (Automated                 accounting and financial reporting weaknesses consis-
Procurement and Payment System, Payroll, Property,                tently identified in the annual audits of the Depart-
BLSGrantPaymentSystem,      andETA'sRegionalAuto-                 ment's financial statements and in the Secretary of
mated System) on a monthly basis, as required. There-             Labor's 1988 and 1989 FMFIA reports to the President
fore, the Department has no reasonable assurance the              and Congress.
general ledger balances affected by these systems are
reliable and complete.                                            Should these conditions persist, substantial reconstruc-
                                                                  tion and integration of records would be required to
Reconciliation    to Supporting   Detail                          produce the necessary financial reports and render an
                                                                  opinion on the Department's Fiscal Year 1990 annual
The Department has not implemented adequate inter-                financial statements.
hal control procedures for the periodic and systematic
review of travel advances and contract obligations. As            The OIG recommended specific corrective actions and
a result, the Department cannot ensure the accuracy of            advised the Assistant Secretary for Administration and
asset and liability balances in the general ledger which          Management that immediate management attention is
are not substantiated against source documents,                   necessary to correct these deficiencies. The OIG also
                                                                  recommended that DOL continue to report on general
INTERIM EVALUATION OF DOLAR$                                      ledger accounting and reporting deficiencies in the 1990
FINANCIAL REPORTING CAPABILITY                                    FMFIA Report to the President and the Congress.


In the evaluation of DOLAR$'s capability to produce               ACCEPTANCE TESTING REVIEW
financial reports in compliance with Treasury and GAO
requirements, the OIG concluded that while the system             During the last 6 months, DOL has progressed signifi-
met Treasury's minimum compliance requirements for                cantly in implementing and testing DOLAR$. DOL has
implementing the U.S. Government Standard General                 met several critical objectives by expanding system
Ledger, the general ledger and financial reports pro-             testing, increasing user involvement, producing more
duced by DOLAR$ did not completely or accurately                  output reports, and improvingcontrol and coordination
account for all assets and liabilities of the Department's        of implementation efforts.
programs and activities in compliance with Treasury
requirements     and GAO standards.                               Although the Department has made considerable prog-
                                                                  ress, the OIG reported continuing problems with
The Department's general ledger and financial reports             DOLAR$ meeting Joint Financial Management Im-
at July 31, 1990, failed to account for major DOL                 provement Program (JFMIP)and     contractual require-
program and other activities including the Unemploy-              ments and user needs, incomplete testing, and inade-
ment Trust Fund, the Black Lung Disability Trust Fund,            quate ADP internal controls.
certain Federal Employees' Compensation Act accounts,
and property. These omitted activities accounted for
                                                                  JFMIP and Contractual Requirements and User Needs
approximately 78 percent of the Department's assets
and 98 percent of the Department's liabilities. The
interim reports used for our evaluation would not                 The Department has made progress in all three areas.
necessarily include all adjusting entries for departmen-          In August 1990, the Department implemented a new
tal assets and liabilities that would be included for a           schema that meets additional JFMIP and contractual
final, year-end closing,                                          requirements. DOL is modifying the contract to clarify
                                                                  some of the ambiguous contractual terms and negotiat-
Nevertheless, the OIG is concerned that these assets              ing to clarify others.
and liabilities will continue to be left out of DOLAR$
because, at the time of our evaluation, the Department            However, the Department has not verified that DOLAR$
did not have documented policies and procedures for               meets all JFMIP and contractual requirements,     user
integrating them into DOLAR$.                                     needs, nor have contract negotiations been completed.



                                                             29
The Department advised that issues would be evaluated            In September 1990, the OIG again recommended DOL
against the contract as they arise. The OIG believes             improve internal control weaknesses by identifying and
DOL should perform a complete review to determine                documenting potentially incorrect Fiscal Year 1990
valid contractual requirements,                                  production data that, by bypassing edits, was reposted
                                                                 to the new schema and may not have been fully cor-
Incomplete   Testing                                             rected; reviewing DOLAR$ tables for accuracy; and
                                                                 improving input control reports to assure the accuracy
The Department has not completed acceptance testing,             and completeness of data input.
Current testing efforts do not include evaluating whether
DOLAR$ meets all Federal financial management and                In addition, DOL has not certified DOLAR$ security as
contractual requirements.       The Department concurs           required by OMB Circular A-130.
that effective testing is needed and is performing exten-
sive system testing. This testing should be extended,
however, to serve as the basis for acceptance testing.           In general, the Department       agreed with the recommen-
                                                                 dations.
DOL still does not have sufficient systems documenta-
tion. In March 1990, the OIG recommended that DOL                DOLAR$ User Satisfaction
request this documentation   from the contractor.    In          (Audit Report No. 19-90-009-07-710,   issued 9/27/90)
response to DOL's request, the contractor offered to
negotiate costs for system documentation    or source
code. In September 1990, the OIG again recommended               Overall, respondents rated DOLAR$ reports as "satis-
that DOL determine the cost effectiveness of acquiring           factory but needing improvement." The survey showed
the documentation,                                               several areas where reports themselves could be im-
                                                                 proved. In response to the draft report, DOL generally
Inadequate ADP Internal Controls                                 agreed with the recommendations    and, in some cases,
                                                                 has already begun corrective action.
In March 1990, the OIG recommended       that DOL both
modify DOLAR$ to remove procedures which weaken                  Respondents indicated that they want more informa-
internal controls and document that DOLAR$ includes              tion about the new system. They were dissatisfied with
adequate input, processing, communication, and out-              the new schema planning effort and responded to our
put controls. The Department is modifying the contract           survey with a number of questions about DOLAR$.
to remove these procedures and agreed to document                DOL needs to communicate regularly with the user
the internal controls,                                           community.




                                                            30
                                                       OFFICE OF AUDIT
                                                            Section 3


                                  The Department's           Enforcement           Program


Historically, the Department has suffered chronic internal conflict between enforcing the
statutes under its authority while simultaneously trying to achieve cooperation through
voluntary compliance.

The Department's resources and energies are diffused and critics charge that the results fall
short at both ends of the enforcement spectrum. Further, since the Department has not viewed
itself primarily as a strong law enforcement agency, its credibility as such suffers in the
regulated community.
In previous Semiannual Reports and in testimony be-               The OIG's report concluded that the Department lacks
fore the Congress, the OIG criticized the Department's            a framework for evaluating future criminal enforce-
longstanding reluctance to recognize and use all the              ment achievements.      Currently, there is no standard
tools available for workforce- and workplace-related              framework used to capture and report data about crimi-
criminal enforcement at the Federal level. The OIG                nal investigations. One limitation is that criminal en-
believes that, while some significant statutory weakness          forcement information produced by the agencies can-
exists (e.g., the requirement of a fatality before certain        not be compared because agency processes used to
criminal penalties can be imposed using the OSH Act),             initiate and pursue criminal investigations differ signifi-
there are other ways to protect American workers                  cantly. Regardless of the role departmental manage-
through the criminal enforcement system. However,                 ment defines for criminal enforcement, there must be a
the Department's history has been to avoid the use of ai-         means to evaluate the resources applied to, and results
ternative enforcement mechanisms, such as general                 obtained from, its criminal enforcement effort.
criminal (Title 18) statutes, and State and local enforce-
ment.                                                             The OIG report concluded that if the Department
                                                                  contemplated a standard framework, it should apply to
In the last Semiannual Report, we noted that there were           all departmental entities which pursue criminal investi-
two major ongoing reviews within the Department, the              gations and should include, at a minimum:
results of which were promised in June 1990: one by the
OIG and one by a special task force to the Secretary.             (1) well-defined guidelines describing when criminal in-
                                                                  vestigative activity should be considered;

OIG's Report on DOL Criminal Enforcement                          (2) identification   of all potential   instances of criminal
(Audit Report No. 09-90-202-01-001,   issued 6/5/90)              violations;
                                                                  (3) documentation showing when situations meeting
The general objective of the OIG's review was to                  the defined guidelines were not pursued with a criminal
determine the extent to which departmental agencies               investigation;
implemented criminal enformment strategies. We looked
at the role played by criminal enforcement in the con-            (4) accumulation of staff resources (hours and dollars)
                                                                  applied by all participants to investigations;
text of the Department's overall enforcement process
and examined the criminal enforcement activity gener-             (5) periodic evaluation of long-term investigations to
ated from that role. We believed that the information             determine if they warrant continuation;
in our report would be germane to the work of the
Department'sEnforcementTaskForcewhichwascom-                      (6) identification of why U.S. Attorneys decline re-
piling agency data about their respective enforcement             ferred investigations; and
problems.                                                         (7) accumulation of prosecution results in common re-
                                                                  porting categories.

                                                             31
It is obvious that if this information were collected and        Apparently the Department does not contemplate es-
analyzed, the Secretary would be in a much stronger              tablishing an overall enforcement framework nor will it
position to evaluate the effectiveness of criminal en-           be challenging the jurisdictional authority issues raised
forcement and its relationship to the other enforcement          by the DOJ opinions. At least, these issues were not
options at her disposal,                                         addressed in the "Report to the Secretary of the Task
                                                                 Force on Enforcement" which was issued in September
In addition, the report urged the Department to revisit          1990.
the issues raised by two Department of Justice (DO J)
opinions for reasons of departmental        independence         The Secretary needs to be cognizant of the extent to
and policy. By acceding to DOJ's view of the OIG's and           which her Task Force report ignores OIG findings and
the Department's investigative authority, the Depart-            conclusions on criminal enforcement.
ment has limited the utilization of significant resources
for criminal investigation which would be available to
the Secretary through the OIG.




                                                            32
                                        Chapter 2

                      OFFICE OF INVESTIGATIONS


From April 1 through September 30, 1990, the Office of Investigations (OI) opened 304 cases
nationally; closed 521; referred 138 for prosecution; and referred 79 to DOL agencies for ad-
ministrative action. During this period, there were 97 indictments, 154 successful prosecutions
and over $8.5 million in recoveries, cost efficiencies, restitutions, fines, and settlements.

As reported in the previous Semiannual Report, OI initiated "Project SESA Assist" to ensure
continuity and a smooth transition for the State Employment Security Agencies (SESAs) to
assume a more vigorous criminal enforcement role related to non-federally-funded      Unem-
ployment Insurance (UI) activities. On a regional basis, OI contacted all SESAs and many U.S.
Attorney offices in a liaison capacity to ensure the success of this transition.

In one instance, OI worked with a western SESA to take corrective action in addressing a
systemic weakness in its UI fictitious employer/employee   scheme detection procedure. As a
direct result, an ongoing multi-State fraud scheme was identified. One individual has already
pied guilty and was sentenced.

In another case, OI worked with the office of the U.S. Attorney for the District of Columbia
and the SESA in establishing a policy to facilitate the prompt referral of UI claimant cases for
prosecutive consideration. Also, OI assisted in the formulation of a standard methodology for
routing UI related restitution tendered by convicted offenders to the District of Columbia
courts, but intended for the SESA.

During this period, Ol has continued to focus its resources on cost efficient investigative
activity to support the integrity of the Department's administered programs and Acts. The
following investigative cases are examples.




                                              33
Federal Employee                                                   s. on September 26, Cecil H. Broyles, a former Air
                                                                   Force civilian apprentice repairer, was indicted for theft
Compensation           Act (FECA)                                  of government property, making false statements, and
                                                                   use of a false Social Security Administration number, by
1. On July 17, Hastings T. Toma, a former U.S. Navy ei-            a federal grand jury in the Eastern District of Virginia.
vilian ship-fitter at Pearl Harbor, was arrested on a              Allegedly, he fraudulently obtained nearly $147,000 in
criminal complaint filed in the District of Hawaii which           FECA benefits from OWCP. From January 1, 1979, to
charged him with six counts of altering FECA benefit               September 23, 1988, the defendant allegedly worked as
checks. On September 4, he entered a guilty plea to all            an appliance technician for S & J Appliance Center,
counts. Toma's sentencing is scheduled for December.               Lightfoot, Virginia, where he used an alias and a false
The scheme netted him $220,000. A bank caught him                  social security number and did not report his employ-
trying to negotiate another altered FECA check for                 ment to OWCP. The investigation was conducted by
$50,000. U.S.v. Toma (D. Hawaii)                                   the OIG and the U.S. Air Force's Office of Special
                                                                   Investigations. U.S.v. Broyles (E.D. Virginia)

2. In a case detailed in the last report, Alfred E. Cullum,
a former civilian U.S. Army sheet metal worker who                 Black Lung Benefits             Program (BL)
had pied guilty on February 7, was sentenced on April
12 for submitting a false claim to the Office of Workers'          1. On August 1, Larry Sligh, St., a former co-owner of
Compensation Programs (OWCP) and illegally receiv-                 Home Medical Rentals, Inc., in Paintsville, Kentucky,
ing over $217,000 in FECA benefits by not reporting his            signed a stipulation and order consenting to a judge-
self-employment. As part of a joint criminal and civil             ment in the amount of $580,000. He had been sued
plea agreement, he relinquished any further entitle-               pursuant to the False Claims Act. Also named in this
ment to Federal disability and Civil Service Retirement            civil action were his son, Larry Sligh, Jr., and father,
benefits and had paid $100,000 of a $150,000 settlement            Ralph E. Sligh.
prior to his plea. Cullum was imprisoned for 6 months,
ordered to make the additional $50,000 payment, and                Larry Sligh, St. and others participated in a conspiracy
fined $25,000. This was a joint investigation by the OIG           to defraud the BL program by submitting false Certifi-
and the U.S. Army Criminal Investigation Command.                  cates of Medical Necessity to DOL for oxygen concen-
U.S.v. Cullurn (D. District of Columbia)                           trators they leased to coal miners. BL test results were
                                                                   falsified so that certain ineligible miners would appear
3.   In Federal District Court in Massachusetts         on         qualified for the leased concentrators. U.S.v. Sligh, St.
August 28, a former U.S. Navy Department plumber                   et al. (D. South Carolina)
was indicted and charged with making false statements
to OWCP and mail fraud. He had received approxi-                   2. An extensive investigation, conducted by OI and the
mately $150,000 in FECA benefits since 1978 and alleg-             Drug Enforcement Administration, disclosed that Dr.
edly did not report to OWCP that he was operating his              Robert H. Cullen, M.D. and his wife, Luzon D. Cullen,
own plumbing firm. His trial is pending. U.S.v.Borden              unlawfully distributed controlled substances through
(D. Massachusetts)                                                 his medical practice and Mercury Drug Corporation, a
                                                                   pharmacy they operated. The couple also conspired to

4. Louis P. McKenna, a former U.S. Navy pipe-fitter,               defraud DOL's BL program by submitting false claims
was indicted in the District of New Hampshire on June              for reimbursement for drugs not provided to BL claim-
                                                                   ants. Controlled substances not used in the treatment
21, charged with making false statements to OWCP. He
did not report that he was employed as a general                   of black lung disease were dispensed. Claims sent to
contractor. Since 1976, McKenna collected in excess of             DOL were supported with fictitious prescriptions. Ad-
                                                                   ditionally, the costs for many of these drugs were
$149,000 in FECA benefits. On September 6, he pied                 inflated in reimbursement claims.
guilty to the charges and agreed to make full restitution,
after admitting to an income exceeding $60,000 per                 Dr. Cullen pled no-contest to one count of illegal drug
year. Sentencing is pending. Thiswas a joint investiga-            distribution in July. He was sentenced to 3 years
tion by the OIG, the Postal Inspection Service and the             probation, fined $8,000 and ordered to make $15,000 in
U.S. Naval Investigative Service. U.S.v. McKenna                   restitution. The Virginia Board of Medicine revoked
(D. New Hampshire)                                                 his license to practice. Mrs. Cullen pled no-contest to




                                                              34
one count of conspiracy to defraud the BL program and             Job Corps
was sentenced to 5 years probation and fined $7,500. As
a corporation, the pharmacy pied guilty to ten counts of          On July 11, in the District of Arizona, an indictment was
false claims against the BL program and was ordered to            handed down charging a Tucson Job Corps center
make $15,000 restitution. U.S.v. Mercury Drug Corpo-              purchasing specialist with one bribery count. He is
ration et al. (W.D. Virginia)                                     alleged to have received cash and personal items from
                                                                  the Midland Chemical Company in return for purchas-

Davis-Bacon        and    Related     Acts    (DBRA)              ing approximately $30,000 in chemicals and supplies on
                                                                  behalf of the center. The prices were allegedly grossly
                                                                  inflated. He is awaiting trial. U.S.v. Jaggers (D.
1. On August 21, Consort, Inc., Thomas J. Barnes,                 Arizona)
President and Burton J. Slatnick, Jr., Vice President
were named in an indictment handed down in Balti-
more, Maryland, charging them with conspiracy to
commit offenses against the United States, false state-           Job Training Partnership               Act (JTPA)
merits, and aiding and abetting. While under contract
with the U.S. Department of Health and Human Serv-                On June 21, Carl DuShane, a former job developer of
ices, National Institute of Health, to conduct certain            JTPA contractor Wayne Metropolitan           Community
renovations, prior to 1985 and continuing through 1986,           Service Agency, Wayne County, Michigan, was indicted
the defendants allegedly entered into a conspiracy not            on four counts of larceny by false pretense. On June 28,
to pay their employees prevailing wages required by               defendants Magdaline Johnson, Bonnie Johnson, Henry
DBRA. They stand accused of falsifying certified pay-             Johnson, Irene Sandra Johnson, Ronald Johnson, and
roll reports, also required by DBRA. As a result of the           Delores Bajcz were also indicted on numerous counts
OIG investigation, the Government has withheld over               of larceny by false pretense. The charges stem from a
$200,000 from the defendants to preclude any loss by              scheme in which the defendants formed bogus compa-
Consort's employees. Trial is pending. U.S.v. Consort,            nies to claim JTPA on-the-job placements for which
Inc. et al. (D. Maryland)                                         they were paid but not entitled. They allegedly netted in
                                                                  excess of $80,000. They are awaiting trial. Michigan v.
2. On May 2, Melba Guerra, President and Controller               DuShane et al. (Michigan)
of F. & P., Inc., was sentenced in the Southern District
of Florida to 3 years probation, ordered to pay $150,000
restitution and fined $10,000. Shehad been convicted of           Trade     Adjustment        Act (TAA)
filing false certified wage reports pertaining to a feder-
ally funded $1 million, Miami-Dade Metrorail System               On April 10, an initial determination was issued by the
contract. She fraudulently reported employee wages                Employment and Training Administration         (ETA) to
and job titles to conceal the fact that her company was           the Employment Security Department (ESD), State of
not meeting DBRA requirements. U.S.v. Guerra (S.D.                Washington, disallowing approximately $606,000. These
Florida)                                                          were TAA funds disbursed by the State to VANALCO
                                                                  Co., a Seattle-based aluminum manufacturer. The dis-
3. On May 10, Douglas Diez, owner of Arcadian                     allowance was predicated upon OIG's investigative
Builders of Gonzales, Louisiana, pied guilty to a crimi-          findings that, from about April 1987 through about
nal information, charging him with false statements.              September 1988, ESD had, among other things, ap-
On July 20, in U.S. District Court in the Middle District         proved TAA OJT contracts for job categories substan-
of Louisiana at Baton Rouge, he was sentenced to 6                tially identical to those previously held by the partici-
months in a half-way house, 5 years probation, fined              pants; written second and third OJT contracts for
$20,000, and ordered to pay approximately $100,000 in             employees who had already moved into unsubsidized
restitution. Diez falsified wage certifications pertaining        employment; and failed to adequately administer the
to a U.S. Postal Service contract, claiming employees             TAA contracts.
were paid in accordance with the DBRA. U.S.v. Diez
(M.D. Louisiana)




                                                             35
Occupational          Safety and Health                           and assessed $350. Coinciding, Lisa was sentenced to 6
                                                                  months house detention, 2 years probation, and or-
Administration           (OSHA)                                   dered to pay approximately $16,000 in restitution. Chris-
                                                                  topher's sentencing is pending. This was a joint inves-
In the District of Connecticut, Paul Tavana and Salva-            tigation by the OIG, the Postal Inspection Service,
tore Rizza, co-owners of L & T Construction, were                 OIG/Department      of Health and Human Services and
indicted on July 11 for conspiracy and offering a $500            the Division of Employment Security for the State of
bribe to an OI undercover agent who was posing as an              Massachusetts.    U.S.v. Dietz et al. (D. Massachusetts)
OSHA compliance officer. The defendants allegedly
tendered the bribe to reduce the potential number of

safety violation f'mdings at their Wethersfield, Con-             Employee       Integrity
necticut, construction site. They are awaiting trial. U.S.
v. Tavana and Rizza (D. Connecticut)
                                                                  1. As noted in the last report, Daryle E. Ratliff, the
                                                                  former director ofOWCP's BL program office at Pikev-
Unemployment            Insurance        (UI)                     ille, Kentucky, used his position to embezzle nearly
                                                                  $231,000. On May 3, he was sentenced to serve 3 years
On July 26, in the District of Massachusetts, Irene D.            imprisonment, fined $10,000, and ordered to pay almost
Dietz pled guilty to seven counts ofan indictment, which          $281,000 in restitution which included the cost of the
included mail fraud, conspiracy, false statements and             OIG's investigation. U.S.v. Ratliff (E.D. Kentucky)
false representation of a Social SecurityAdministration
number. Concurrently, her daughter-in-law, Lisa Dietz,            2. On August 22, Delia A. Lewis, a former employee of
pied guilty to three counts of the same indictment                the Occupational Safety and Health Administration,
charging conspiracy and bank fraud. On September 24,              pied guilty to forgery of DOL Recreation Association
Christopher Dietz, Irene's son, pied guilty to seven              checks and submitting false payroll claims to DOL. She
counts of the indictment, charging conspiracy and mail            illegally obtained over $21,000 from these activities, of
fraud,                                                            which about $3,500 has been administratively recovered

TheyconductedaschemewhichdefraudedsevenStates                     by DOL. Sentencing      is pending.   U.S.v.   Lewis (D.
                                                                  District of Columbia)
of more than $220,000 in unemployment         insurance
benefits, beginning in 1978. The conspiracies entailed
false applications for UI benefits, the rental of post            3. An OIG investigation was conducted in response to
office boxes in fictitious names, the forgery of UI               an anonymous complaint concerning the falsification of
checks, some of which were cashed by Lisa when she                travel vouchers and time and attendance reports by
was a bank teller and assistant manager. On September             three of its employees. Following an investigation, the
25, Irene was sentenced to 21 months house detention,             matter was referred to the U.S. attorney for considera-
3 years probation, ordered to pay $23,000 restitution,            tion. All three have resigned their positions.




                                                             36
                                 COMPLAINT                     HANDLING                    ACTIVITIES

The OIG Complaint Analysis Office and the OIG regional offices serve employees, other
agencies, and the general public who report suspected incidents of fraud, waste, and abuse in
DOL programs and operations.



       Sources:                                                                                                           Number:

       Walk-in ................................................................................................................     2
       IG Hotline ........................................................................................................         54
       Other Telephone Calls ....................................................................................                  13
       Letters from the Congress ................................................................................                   6
       Letters from individuals or organizations ....................................................                              75
       Letters from DOL agencies ..........................................................................                       132
       Letters from Non-DOL agencies ................................................................                             140
       Incident Reports from DOL agencies ..........................................................                               84
       Reports by Special Agents and Auditors ....................................................                                 37
       Referrals from GAO ........................................................................................                  2

       Total ................................................................................................................     545



       Disposition:                                                                                                       Number:

       Referred to Office of Audit or Office of Investigations ..........................                                         123
       Referred to DOL program management ....................................................                                     28
       Referred to other agencies ..............................................................................                    7
       No further action required ..........................................................................                      116
       Pending disposition at end of period ..........................................................                            121

       Total ................................................................................................................     545




                                                                         37
                                        Chapter 3

                OFFICE OF LABOR RACKETEERING


Fulfilling its historical mission of identifying and reducing labor racketeering and corruption
while addressing the emerging problem of fraudulent multiple employer welfare arrange-
ments (MEWAs) has fully occupied the Office of Labor Racketeering (OLR) during this
reporting period.

"Traditional" labor racketeering, more sophisticated than in years past, is still prevalent in
various areas of the country. Our investigation of the Painters District Council 9 in New York
City has revealed that the sweetheart contract, the bribe for labor peace, and outright extortion
by organized crime continue to characterize certain segments of the construction industry in
the Northeast. Investigation of the garment industry in New Jersey has led to indictments
alleging payoffs for labor peace, bribes, and kickbacks. In Cleveland, a Teamsters official was
convicted of embezzling benefit plan funds to pay legal fees stemming from a prior racketeer-
ing conviction. In a Philadelphia case, a demolition contractor made weekly payments to
organized crime members to permit him to violate his union contract.

While these and similar cases put first claim on OLR resources, a re-emergence of fraudulent
MEWAs that masquerade as legitimate providers of group health coverage (discussed in our
last SemiannualReport)   has resulted in a significant investigative effort. Working in coopera-
tion with State insurance regulators, OLR has been at the forefront in attacking the MEWA
problem. Numerous cases involving apparently fraudulent MEWAs have been initiated and
are being actively pursued; OLR has referred even more to other investigative agencies.

OLR's strategy in addressing the MEWA problem is to activate the resources of other inves-
tigative agencies at the Federal and State level, educate the public to the fraud being perpe-
trated, and undertake active investigation in those cases where fraud is flagrant and egregious.
OLR intends to bring the MEWA problem into manageable proportions within the next year
and to work closely with regulatory agencies to ensure that fraudulent operators are kept out
of business.

Examples of significant cases follow.




                                               39
EMPLOYEE          BENEFIT       PLANS                             Costobile, owner of Costo, Inc., had been indicted by a
                                                                  Federal grand juryin Philadelphia in September 1989 in
                                                                  a 33-count indictment. He pied guilty in February to
American Federation of State, County, and                         one count of racketeering. In his guilty plea, Costobile
Municipal Employees District Council 33                           admitted defrauding the Laborers Local 332 Health
                                                                  and Welfare Fund and violating the collective bargain-
Earl Stout, former president of the American Federa-              ing agreement that he had with the local.
tion of State, County, and Municipal Employees Union
(AFSCME) District Council 33 in Philadelphia, was                 Costobile has agreed to make restitution of $482,469
convicted by a Federal jury on May 4, on 40 counts that           due as a result of underreporting man hours to the fund.
included racketeering, conspiracy, theft, and mail fraud.         Under forfeiture provisions of the Racketeer Influ-
The charges involved the theft of approximately $750,000          enced and Corrupt Organizations         (RICO) statute,
from programs receiving Federal funds.                            Costobile will forfeit real property that was used in the
                                                                  racketeering enterprise.
An August indictment had charged Stout with using the
council and its legal services and health and welfare             The racketeering count to which Costobile pied guilty
funds to defraud AFSCME members. Federal funds                    charged that he used Costo, Inc., in furtherance of his
involved in this conviction were Medicare funds from              scheme and listed the following specific racketeering
the U.S. Department     of Health and Human Services              acts: (1) making payoffs of $70 per laborer per week to
(HHS).                                                            Philadelphia organized crime figures so that they would
                                                                  prevent Local 332 officials from harassing him when he
Stout was found guilty of conspiring to use the council           employed non-union laborers; (2) causing assaults on
for his personal benefit and that of his family, friends,         laborers who threatened to expose his use of non-union
and council members who supported him. As part of                 laborers; (3) paying a 1985 candidate for union business
the conspiracy, five persons on a union-affiliated hospi-         manager $4,300 to withdraw and enable the incumbent,
tal payroll who performed no work were paid a total of            Samuel Staten, to run unchallenged; and (4) bribing a
approximately $90,289.                                            former employee of a home improvement chain store to
                                                                  ensure the awarding of demolition and construction
 He was also found guilty of paying $100,000 a year to an         contracts to his company.
 attorney who was a public trustee of the legal services
fund. The lawyer, a former Commonwealth             court         This case is illustrative of organized crime's relation-
judge, performed no services for the plan.                        ship with corrupt labor officials. The payoffschemewas
                                                                  arranged by La Cosa Nostra (LCN) soldier Nicholas
Stout and his son were found guilty of using hospital             Caramandi, who is now in the Department of Justice's
funds totaling $87,782 to purchase two prepaid whole              Witness Protection Program. It was approved by Phila-
life insurance policies on Stout himself. The money was           delphia LCN boss Nicodemo Scarfo. Steven Traitz,
withdrawn from hospital funds on the day Stout lost his           head of the Roofers Union in Philadelphia, who was
re-election bid for presidency of the union,                      convicted of racketeering in 1988 in an unrelated inves-
                                                                  tigation, was used by the LCN to intercede with Staten
On September 19, Stout was sentenced to 3 years, 10               on behalf of Costobile to allow the use of non-union
months incarceration in Federal prison and ordered to             labor.
pay $448,762 in restitution to the union.
                                                                  The 18-month investigation leading to Costobile's prose-
These convictions are a result of a joint investigation by        cution and sentencing was conducted jointly by OLR
OLR, the FBI, and the HHS/Office of Inspector Gen-                and the FBI with assistance from the U.S. Environ-
eral. U.S. v. Earl Stout et al. (E.D. Pennsylvania)               mental Protection Agency.      U.S.v. Ralph Costobile
                                                                  (M.D. Pennsylvania)

Laborers Local 332
                                                                  Teamsters Local 436 Benefit Plans
Ralph Costobile, a Philadelphia demolition and con-
struction company owner, was sentenced on May 3, to               On April 2, Salvatore "Sam" Busacca Sr., a currently in-
serve 3 years in prison for racketeering involving Labor-         carcerated former official of Teamsters Local 436 in
ers Local 332 benefit funds.                                      Cleveland was sentenced to serve an additional 4 years


                                                             40
in Federal prison as a result of a December 1989 rack-         INTERNAL UNION AFFAIRS
eteering and embezzlement conviction. He must also
make restitution of $258,435 he embezzled from the
local's welfarefund.                                           United Steel Workers District Council 31
                                                               and Local 1014
Busacca embezzled the money to pay attorney fees
accrued in an unsuccessful defense of racketeering and         Six former and current local officials of the United Steel
embezzlement charges brought in 1986. For this earlier         Workers of America (USWA), five bingo game opera-
conviction he is currently serving 10 years in Federal         tors, and a Catholic priest were indicted by a Federal
prison,                                                        grand jury in Hammond, Indiana, on April 10, on viola-
                                                               tions involving illegal gambling and embezzlement of
At the time of both embezzlements, Busacca was presi-          union funds. The 25-count indictment charged four of
dent of the local and chairman of the Board of Trustees        the union officials with violating the Racketeer Influ-
for the employee benefit funds,                                enced and Corrupt Organizations (RICO) statute.        To
                                                               date, three defendants have pied guilty.
Both embezzlements were uncovered by OLR during
its investigation of corruption in Teamsters Local 436         The indictment charges that between approximately
and its benefit plans. Busacca is the 17th person to be        May 1983 and March 1986, the defendants ran an illegal
convicted and sentenced in this investigation. U.S.v.          gambling operation at the local's union hall in Gary.
Salvatore Busacca et al. (N.D. Ohio)                           The defendants allegedly maintained the appearance of
                                                               a charitable, tax-exempt, church fundraiser.

International     Medical Centers                              General "Jack" Parton, USWA District Council 31
                                                               director and trustee of the international union; Phillip
Three men have pled guilty to charges involving a              Cyprian, former local 1014 president; Harry Piasecki,
kickback scheme to acquire a health care contract from         district council employee and former local 1014 presi-
a south Florida welfare fund.                                  dent; and Ezell Cooper, former local 1014 treasurer and
                                                               financial secretary were charged with running the af-
Jorge Recarey, former employee of the now defunct              fairs of the local from approximately March 1971 to
International Medical Centers (IMC); Antonio Fer-              February 1987 through a pattern of racketeering activ-
nandez, former president of the Hotel Employees and            ity. The RICO count mentions 12 specific racketeering
Restaurant Employees (HERE) Union Local 355; and               acts, including embezzlement of union funds by requir-
Mariano Villa Del Rey, former personnel director for           ing 10 percent kickbacks from vendors for work done
Doral Properties of south Florida had been indicted in         for the district council and the local and kickbacks from
April 1987. They were charged with participating in a          the bingo operators who rented the union hall.
kickback scheme involving approximately $115,000 in
payments from Recarey to Del Rey and Fernandez for             The four defendants mentioned above and Enrique
their influence in helping IMC obtain a 5-year contract        Montemayor, former local 1014 treasurer, were also
to provide health care to Local 355 union members,             charged with 10 underlying union embezzlement viola-
Del Rey pied guilty February 9, 1990, to one count of          tions contained in the racketeering count.
receiving a kickback; he was sentenced to 3 years
probation.                                                     These five as well as Leroy V. Williams, a former
                                                               employee of the local, were charged with making false
On May 10, both Recarey and Fernandez pied guilty to           entries in the union's books and records to cover up
one-count criminal informations. Fernandez pied guilty         questionable transactions. Montemayor pied guilty on
to accepting money and things of value; he was sen-            July 31, to one count each of embezzlement and falsify-
tenced to 6 months in prison and 3 years probation,            ing union records.
Recarey pied to making a kickback; he was sentenced to
4 months in prison and 3 years probation and fined             Cyprian, Cooper, Williams, and the five bingo opera-
$10,000. The investigation was conducted by OLR.               tors--Seymour Klein, Seymour Levin, Louis Del Grosso,
U.S.v. Miguel Recarey, Jr. et al. (S.D. Florida)               Kathleen Rainey, and MardeU Grandy--were charged




                                                          41
with operating an illegal gambling business and con-              vestigation by OLR and the FBI. U.S.v.SamuelF.        Long
spiracy to defraud the Government by attempting to ob-            et al. (W.D. Missouri)
struct the collection of Federal income taxes. Klein,
Levin, Grandy, and Del Grosso were also variously
charged with removal of evidence, Federal tax viola-              New York District Council of Carpenters
tions, and perjury.                                               The District Council of New York and Vicinity of the
RaineypledguiltyonJulyl9,toonecounteachofillegal                  United Brotherhood       of Carpenters     and Joiners of
gambling and conspiracy. Grandy pied guilty on August             America, its top four officials, and six reputed members
1, to one count each of conspiracy and perjury,                   of the Genovese organized crime family are the subjects
                                                                  of a civil racketeering suit filed by the U.S. Attorney for
Monsignor John F. Morales was charged with causing                the Southern District of New York on September         6.
false entries to be made in union records, operating an
illegal gambling business, conspiracy, perjury, making            The civil racketeering complaint charges the defen-
false statements, and Federal tax violations,                     dants with conducting the affairs of the council and its
                                                                  constituent locals and affiliated benefit funds through a
Investigation of this case was conducted jointly by OLR           pattern of racketeering activity. This racketeering ac-
and the IRS and is part of a continuing probe into                tivity includes illegal labor and benefit fund payoffs,
alleged labor racketeering in northwest Indiana. U.S.v.           mail fraud, and extortion.

Philip Cyprian et al. (N.D. Indiana)                              The suit marks the fourteenth   time the Government    has
                                                                  brought legal action under the civil provisions of the
Operating     Engineers Local 101                                 Racketeer Influenced and Corrupt Organizations (RICO)
                                                                  statute to eliminate organized crime influence over
The president of Operating Engineers Local 101 in                 unions or industries. The suit is based largely on a series
Kansas City, Missouri, and a Missouri State representa-           of investigations into corruption in the construction
rive were convicted by a Federal jury in Kansas City on           industry in New York. At the State level, investigations
September 27, on charges of conspiracy, embezzlement              were conducted jointly by the Office of Labor Racket-
of union funds, and interstate transportation of stolen           eering, the New York County District Attorney's Of-
property.   A State senator was acquitted of similar              rice, and the New York State Organized Crime Task
charges.                                                          Force. Federal investigations involved the joint efforts
                                                                  of the Office of Labor Racketeering and the FBI.
Sam F. Long, business manager of Local 101, Elmer E.
Cantrell, a state representative who is president of the          The complaint alleges that, despite many successful
MissouriState Building and Construction Trades Coun-              criminal prosecutions since 1981 involving the District
cil; and Edward Quick, a State senator who is vice-               Council of Carpenters, the Genovese organized crime
chairman of the State legislature's Labor and Industrial          family continues to influence the council. Allegedly, the
Relations Committee had been indicted on June 14.                 corrupt union officers and the Genovese crime family
The indictment charged that the defendants caused the             derived immense profits through entrenched racket-
interstate transportation of two checks totaling $10,003          eering, including illegal labor payoffs by contractors to
that they fraudulently obtained from the International            union officers and Genovese crime family figures in
Union of Operating Engineers in Washington, D.C.                  return for labor peace. According to the complaint,
Long and Cantrell were charged with additional counts             contractors who made payoffs were often permitted to
of conspiracy, embezzlement, and interstate transpor-             violate collective bargaining agreements or to avoid un-
tation of stolen funds for allegedly concealing the origi-        ionization altogether.    Union members who opposed
nal $10,000 theft by embezzling from Local 101 to                 this state of affairs were intimidated into silence by
reimburse the International       Union in Washington.            economic coercion, threats, violence, and the known
Edward Quick was acquitted of all charges,                        ties between union officers and organized crime.

Investigation was conducted jointly by OLR, the FBI,              The Government is asking the court to remove from
and the Department of Labor's Office of Labor Man-                office all District Council officers having violated the
agement Standards and is part of a continuing joint in-           RICO statute and to place the union under trusteeship.




                                                             42
The following union officials are included in the com-            underboss Anthony Casso, former consigliere Christo-
plaint: Paschal McGuinness, president;IrvingZeidman               pher Furnari, capo Peter Chiodo, the late District
and Frederick W. Devine, vice presidents; and Francis             Council 9 secretary-treasurer James Bishop, and defen-
J. P. McHale, secretary-treasurer.  Reputed members               dants Kamen and Capaldo. Allegedly, the activities of
of the Genovese organized crime family named in the               the enterprise were coordinated by Bishop and Frank
complaint are: Anthony Salerno, former boss; Vincent              Arnold, president of Huber Decorating, Inc., and an
DiNapoli, Peter Defeo, and Liborio Bellomo, capos;                alleged associate of the Luchese organized crime fam-
and Louis DiNapoli and Alexander Morelli, members,                ily, together with defendants Capaldo, Kamen, Rech,
U.S. v. District Council of New York and Vicinity of the          and Courtien.
United Brotherhood of Carpenters and Joiners of Amer-
ica et al. (S.D. New York)                                        The alleged criminal enterprise tLsed its control over the
                                                                  district council to solicit bribes and extort money from
LABOR-MANAGEMENT                   RELATIONS                      painting contractors in return for allowing violations of
                                                                  the council's collective bargaining agreement.       This
                                                                  included using non-union painters, ensuring the assign-
Painters    District Council 9                                    ment of compliant job and shop stewards, and other
                                                                  favors.
Eight top officials of the Painters Union in New York
City, two reputed major figures of the Luchese organ-             Defendants Capaldo, Kamen, and Courtien are specifi-
ized crime family, and two businessmen were indicted              cally charged with controlling the awarding of three
by a County of New York Grand Jury on June 20,                    painting contracts of the New York City Transit Au-
following a joint investigation by OLR and city law               thority from June 1989 through March 1990. They
enforcement agencies into corruption in the construc-             allegedly did so by demanding large kickbacks from
tion industry in New York.                                        contractors before they would agree to supply them
                                                                  with productive painters to work on the job or to allow
Three indictments were returned. One indictment in-               cost-saving spray painting on the job, and by strictly
dudes the current leadership of District Council 9 of the         enforcing the union agreement to force unfavored
International Brotherhood of Painters and Allied Trades           contractors to give up the job to a company designated
and a businessman. This 153-count indictment charges              by the criminal enterprise.
them under the New York State Organized Crime
Control Act with the crime of enterprise corruption,              Allegedly, the defendants policed their enterprise by
bribing a labor official, receiving bribes, grand larceny,        identifying it with the Luchese crime family and through
coercion, and conspiracy. The indictment charges that             violence and threats of violence. Specifically, Capaldo,
for the past 12 years the defendants, along with mem-             Kamen, and Rech are charged with threatening Bishop's
bers and associates of the Luchese crime family and               life to force him from office after he fell out of their
various painting contractors, were members of a crimi-            favor so that Kamen would succeed him and run the
nal enterprise. This enterprise controlled the affairs of         council under their control. They also allegedly con-
District Council 9 and extracted hundreds of thousands            trolled elections to council positions by threats and
of dollars in bribes and kickbacks on painting contracts          intimidation.
in the New York metropolitan area.
                                                                  A second indictment names reputed Luchese under-
Defendants in this indictment are: Edward Capaldo,                boss Casso, reputed Luchese capo Chiodo, and busi-
Painters Local 1486 business manager; Paul Kamen,                 nessman Frank Arnold, all mentioned as unindicted co-
council secretary-treasurer;   Aaron Lefkowitz, Salva-            conspirators in the first indictment. They are charged
tore Savarese, Joseph Candiano, Edward F'llancia, council         with grand larceny by extortion and coercion in connec-
business agents; William Courtien, general business               tion with the ouster of James Bishop from his position
representative of the international union; and Daniel             as secretary-treasurer  of District Council 9 in 1989.
Rech, a project supervisor of Leeds Painting and Deco-
rating, a major painting contractor.                              Bishop was murdered     gangland style by unknown as-
                                                                  sailants on May 17.
The indictment alleges that the criminal enterprise was
directed at various times by reputed Luchese crime                On September 24, Chiodo pied guilty to grand larceny
family members, including family boss Vittorio Amuso,             by extortion, a felony. He admitted coercing Bishop



                                                             43
into relinquishing his union position using his LCN              products manufacturer in return for his purchasing API
associations to instill fear. Arnold also pied guilty on         products. They also allegedly received nearly $130,000
September 24 to coercion, a misdemeanor.      He admit-          from a glass bottle manufacturer by mailinginvoices for
ted threatening to injure Bishop if he did not vacate his        goods that had not been ordered by or shipped to the
union position,                                                  company. On June 29, Stafford pled guilty to making il-
                                                                 legal payments.
In a third indictment, Seymour Strelzik, coordinator of
the Joint Apprentice Committee , is charged with re-             The indictment of Sarbello, Stafford, and Centurione is
ceiving bribes.    The Committee is an organization              related to another recent prosecution in OLR's 2-year
staffed by representatives of District Council 9 and the         investigation of corruption in the garment industry in
Association of Master Painters and Decorators.                   New Jersey. In March, Victor Fabietti, part-owner of
                                                                 Atlantic Dress Manufacturing     Company, a women's
This lengthy investigation was conducted jointly by              clothing manufacturer, pied guilty to a federal misde-
OLR, the Manhattan District Attorney's Office, and the           meanor information charging him with conspiracy to
New York City Police Department's Organized Crime                make illegallabor payments to Benn. He was sentenced
Control Bureau. New York v. Anthony Casso et al.                 to 2 years probation and fined $5,000. U.S. v. Michael
                                                                 Sarbello et al. (D. New Jersey)
Philadelphia-South Jersey International
Ladies Garment Workers Union District                            OTHER CASES
Council
                                                                 Asphalt Specialist,       Inc.
Three executives of a cardboard box and display manu-
facturingcompanyinNewJerseywereindictedonApril                   On April 24, 1990, a Federal grand jury in Cleveland
24, 1990, by a Federal grand jury in Newark in connec-           charged Anthony R. Bucci and Asphalt Specialist, Inc.
tion with an alleged 6-year pattern of racketeering              (ASI), of Youngstown, Ohio with making false claims to
involving the Philadelphia-South   Jersey International          the government and mail fraud. Allegedly, Bucci and
Ladies Garment Workers Union (ILGWU) District                    ASI had submitted approximately $10,000 in false claims
Council.                                                         for compensation for employing veterans.

A 21-count indictment charged Michael Sarbello, Clif-            In a second indictment, returned May 23, Anthony R.
ford Stafford, and Joseph John Centurione, owners and            Bucci, his brother Robert T. Bucci Sr., and ASI were
officers of Associated Packaging Company, Inc. (API),            charged with conspiring to make false statements in
of Gloucester County, with 2 counts of racketeering, 1           certified payrolls during construction in 1985 and 1986
count of racketeering    conspiracy, and 18 counts of            of Interstate 80, State Route225, and CountyHighway
bribery.                                                         117 inthe Youngstown area. Three additional substan-
                                                                 tive counts charge them with making false statements
The defendants allegedly made illegal labor peace payoffs        regarding wages paid.
to Harry Benn, who was an ILGWU district manager
and assistant manager for 25 years. They also negoti-            Allegedly, the Bucci brothers, who are notorious in the
ated contracts with Benn that included favorable provi-          Youngstown area, paid some of their employees one-
sions such as a 13-week waiting period before new em-            half of the required prevailing wage, but submitted
ployees would become eligible for health and welfare             certified payrolls that indicated they had paid full wages.
benefits and a 40-hour work week. The ILGWU con-                 'They also allegedly completely omitted numerous
tract calls for a 35-hour work week with any time                employees from the certified payroll. The counts charged
worked after that paid as overtime. Allegedly, Benn,             involve an approximate $60,000 loss to ASI employees.
who has not been indicted, received 25 percent of the
savings derived from this arrangement as kickbacks.              The investigation leading to the two indictments was
The indictment lists nearly 80 payments to Benn rang-            conducted jointly by OLR, the Department of Trans-
ing from $350 to $3,125 from June 1980 to June 1987.             portation Office of Inspector General, the FBI, and the
                                                                 IRS. The Department of Veterans Affairs also partici-
Also included in the indictment are charges that the             pated in the investigation leading to the April indict-
defendants paid kickbacks of over $87,000 to a glass             ment. U.S.v. Anthony R. Bucci et al. (N.D. Ohio)



                                                            44
Consolidated Edison Company of New York                           complaints against DeGratto and Boyle were dismissed
                                                                  without prejudice on September 11.
Seventeen former and current employees of NewYork's
Consolidated Edison Company (ConEd)were          charged          Ten defendants charged in State court with extortion
on August 9, in Federal and State criminal complaints             and bribery were responsible for arranging the provi-
with bribery and extortion.      The complaints allege            sion of gas and electrical service to Manhattan ConEd
extortion and bribery involving cash from ConEd cus-              customers, conducting inspections to ensure that the
tomers, electrical contractors, and others in return for,         service was provided safely, arranging repairs of gas
among other things, overlooking safety hazards such as            leaks or other safety hazards, and preventing and halt-
natural gas leaks, allowing illegal gas and electrical            ing thefts of service through illegal hookups. Dennis
hookups to go unreported, and expediting the provision            Connell, Kon Troy, John Lombardo, Peter Poggioli,
of gas or electrical service.                                     Patrick Cawley, and Luis Hernandez allegedly extorted
                                                                  or were bribed by individuals receiving gas or electrical
Complaints filed against seven defendants in federal              service through illegal hookups. Allegedly, some of the
district court in Brooklyn charge extortion and fraud,            defendants permitted illegal hookups at a restaurant, an
Specifically, the complaints allege that five employees           auto repair shop, a laundromat,      and an apartment
of ConEd's Bedford/Bushwick           Branch regularly ex-        building in return for cash.
torted money from electrical contractors and others by
threatening to delay provision of electrical service, or          William Cutler, Cornelius Healey, and John Ryan are
promising to expedite service. Leonard Calone, Ronald             charged with obtaining cash from ConEd commercial
Saviano, Thomas Baylor, Richard Boyle, and Robert                 customers by threatening to delay the provision of gas
Strunk and their supervisor, ConEd district manager               or electrical service or by promising to expedite service.
Michael Schultz, were responsible for arranging the               Cutler allegedly attempted to extort cash from a restau-
provision of electrical service in the Bedford-Stuyvesant         rant owner after he had been suspended by ConEd. All
and Bushwick areas. Schultz allegedly shared in the               three have pled guilty in New York State court to receiv-
money extorted by the others and also personally ex-              ing commercial bribes.
torted cash from ConEd customers.
                                                                  ConEd supervisor James      Macioce   allegedly extorted
The Federal complaints also charge that ConEd man-                cash and accepted bribes in return for allowing delays in
ager Joseph DeGratto obtained payoffs from ConEd                  repairs of gas leaks at a Barrow Street apartment
commercial customers in low-income Brooklyn neigh-                building and a Christopher Street restaurant.
borhoods in return for unauthorized reductions in their
electric bills. He allegedly arranged for approximately           The charges follow a lengthy investigation of corruption
$164,000 in unauthorized reductions,                              among ConEd employees by OLR. This investigation is
                                                                  part of a probe by OLR into corruption in the construc-
On September 7, a Federal grand jury in Brooklyn                  tion industryin NewYork City. U.S.v.Joseph DeGratto,
charged Schlutz, Calone, Baylor, Saviano, and Strunk              et al. (E.D. New York) and New York v. John Ryan et al.
with conspiracy to commit extortion.    The criminal




                                                             45
                                                    Chapter 4

                 OFFICE OF RESOURCE MANAGEMENT
                   AND LEGISLATIVE ASSESSMENT


The Office of Resource Management and Legislative Assessment supports the OIG by
fulfilling several responsibilities mandated by the Inspector General Act of 1978, including leg-
islative and regulatory review, reporting to the Congress, representing the OIG on various
committees and initiatives of the President's Council on Integrity and Efficiency, and perform-
ing general management and support activities to achieve the mission of the OIG.

Section 4(a) of the Inspector General Act of 1978 requires the Inspector General to review
existing and proposed regulations and to make recommendations in the Semiannual Report
concerning the impact on the economy and efficiency of the administration of the Depart-
ment's programs and on the prevention of fraud and abuse.


Clarification of OIG's Authority                                   ment of employee safety and health, and wage and hour
Continues to be Needed                                             standards where neither Federal funds or employees
                                                                   are involved.

The Justice Department's       Office of Legal Counsel's
March 1989 opinion severely limits the OIG's Office of             The OIG has advised the Department       that these mat-
Investigations' ability to investigate criminal fraud and          ters remain in need of resolution.
abuse in major Department of Labor areas.

On July 17, 1990, after meetings and discussions among
                                                                   Delay of Department's             Pension     Welfare
a few OIGs and the DOJ which was facilitated by the                Benefits   Administration      (PWBA) Legislative
President's Council on Integrity and Effectiveness (PCIE),         Proposals
the DOJ issued what it considered to be a "clarifica-
tion" of the opinion. This was in the form of a letter             On September 18, 1989, in a letter to Congressman
from OLC to OMB referencing the DOJ/PCIE corn-                     Tom Lantos, following an Employment and Housing
mittee agreement. In a July 18, 1990, memorandum to                Subcommittee hearing concerning ERISA enforcement,
PCIE members, the PCIE Vice Chair stated, "[O]f                    the Department promised legislative enforcement pro-
course, no statutory IG is bound by a PCIE committee               posals to redress concerns about ERISA enforcement.
agreement or, for that matter, any PCIE agreement...."             On June 8, 1990, the Department sent legislative pro-
                                                                   posals to the Office of Management and Budget (OMB)
Although the "clarification" to the OLC opinion seems              for approval. As of September 30, 1990, OMB clear-
to resolve some of the confusion created by the original           ance of the Department's proposals had not been ob-
opinion for other OIGs, it does not resolve many of the            rained.
specific problems identified within the Department of
Labor. The original opinion continues to limit the                 The OIG strongly recommends that the Labor Depart-
ability of OIG's Office of Investigations to conduct               ment push for introduction of these proposals early in
criminal investigations into fraud relating to the specific        the next legislative session to assure that action is not
areas of employee benefit abuse, reckless endanger-                deferred for another ful___!
                                                                                              ey.e.._.




                                                              47
LEGISLATIVE          CONCERNS                                    LEGISLATIVE           AGENDA


S. 2080 and H.IL 4149, "Office of Inspector                      The following represent several of the items included by
General Law Enforcement Act of 1990."                            the OIG in its portion of the Department's CY 1991
                                                                 legislative agenda.
This bill was introduced by Senator Rudy Boschwitz in
the Senate and Congressman Harley Staggers in the
House. The OIG has strongly supported anylegislation             Exemption of Undercover ]tG Operations
which would provide for full lawenforcement authority            from Certain       Limitations
for OIG criminalinvestigators (GS-1811s). The lack of
such authorityimpedes the abilityof OIG special agents           While the OIG's Office of Labor Racketeering (OLR)
to perform many traditional lawenforcement responsi-             has budgeted funds for undercover operations, it lacks
bilities and presents a real problem of safety for wit-          the authority to carry out some of the wide range of
nesses and agents,                                               activities necessary to conduct effective undercover
                                                                 operations. The FBI and the Department of Treasury
While DOJ's temporary deputization of some of the                have a statutory exemption of undercover operations
OIG's criminal investigators has proved beneficial in            from certain laws. OLR is seeking a similar exemption.
the past, it has only been a palliative remedy and does
not adequately meet the need for permanent law en-               Undercover operations, by their nature, require a cer-
forcement powers necessary to ensure success and                 tain amount of deception. It is frequently necessary to
credibility; moreover the renewal process has proved to          set up a business as part of the operations. It is also
be burdensome and inefficient,                                   often necessary to lease office space, open a checking
                                                                 account, etc., in the fictitious name of a bogus business.
Full law enforcement authority includes making ar-               It is essential that the existence of the fictitious business
rests, issuing search warrants, and carrying firearms--in        and false name used by the undercover agent remain
essence, the ability for OIG criminal investigators to           secret to ensure the success of the undercover operation
conduct their investigations with the same tools and             and to protect the safety of the undercover agent.
safeguards granted to the traditional law enforcement
agencies such as the FBI, DEA, IRS, Customs, and the             Federal statutes and regulations in the areas of procure-
Secret Service (all GS-1811 investigators). Neither bill         ment of space, establishing corporations, and deposit-
had received committee action as of the close of the             ing funds in banks require procedures which are incom-
reporting period. We will continue to support the                patible with operational security,serve to impede under-
introduction of similar legislation in the next Congress.        cover operations and could put both the operation and
                                                                 the undercover agent at risk. OLR needs an exemption
                                                                 from these laws if it is to maximize the investigative
H.1L 2039, "Job Training Partnership Act                         potential of its undercover operations.
and Youth Employment Amendments of 1989"
                                                                 Legislationproposed should also permit the OIG to use
                                                                 the proceeds from undercover operations to offset
The OIG has supported this bill which would alleviate            necessary and reasonable expenses. Without an ex-
some longstanding problems about serving those most              eruption, OLR is prohibited under federal law from
in need, adequately accounting for costs charged the             using these proceeds. The use of the proceeds would
Government, and greater fairness and specificity in              add credibility to the operation while saving taxpayer
contracting for JTPA services. This bill was passed              money. Effective stringent internal controls and audit
overwhelminglyby the House andsent to theSenate on               oversight would be incorporated into the process.
October 1, where it died withoutbeing introduced. The
OIG will continue to support the need for similar
legislation in the next Congress.




                                                            48
Additions  to the Department's             Draft Bill,            Hobbs    Act Amendment
"To Provide for More Effective           Enforcement
of the Labor-Management   Reporting and                           The OIG recommends        that the Department support
Disclosure Act of 1959 (LMRDA) and for                            legislation that would
                                                                  Court's decision       nullifyStates
                                                                                     in United    the effect of the Supreme
                                                                                                       v. Enmons    410 U.S.
Other   Purposes"                                                 396 (1973).

The OIG suggests the following items be incorporated              Such legislation would make clear that the Hobbs Act
into the Department's proposed bill:                              punishes the actual or threatened use of force or vio-
                                                                  lence to obtain property as part of a labor-management
1. Amend Section 504 of the LMRDA so that the                     dispute. TheDepartmentofJusticehaslongsoughtthis
disabling offenses under the more inclusive Section               result, and, in the 99th Congress, strongly supported
1111 of ERISA be applicable to LMRDA so that the                  S.1774, a bill that would accomplish this purpose with-
disabling crimes under both laws would be identical,              out banning incidental picket line violence and threats
Proposed legislation should also unequivocally reassert           of violence.
that disability under Section 504 of the LMRDA or
Section 1111 of ERISA shall not be stayed pending
appeal of the disqualifying conviction or otherwise set
aside except as provided by these sections.

2. Amend Section 209 of the LMRDA           to make it a
felony to fail to report on or falsely report union finan-
cial activities.




                                                             49
                                                        Chapter 5

                                         AUDIT RESOLUTION

                                                Audit   Resolution Activity
                                                        ($ millions)


               Period              Audit Reports                        Amount                              Total
               Ending              Resolved                Disallowed              Allowed                  Resolved

               3/31/89                    344                 $46.6                  $74.2                     $120.8
               9/30/89                    327                 $72.7                  $45.5                     $118.2
               3/31/90                    350                 $15.4                   $3.0                      $18.4
               9/30/90                    263                $344.0                   $3.6                     $347.6

          Detailed information about audit resolution activity for the period may be found in Chapter 7.




SIGNIFICANT              RESOLUTION             ACTIONS


Management's          Commitment           to Recover Funds

The following are examples of significant resolution actions taken by program officials result-
ing in the disallowance of costs claimed by the Department's   contractors and grantees.

Teledyne Economic Development                                     Mississippi    SDA Fixed Unit Price Contracts
(Audit Report No. 18-89-021-07.735, issued 9/29/89)               (Audit Report No. 04.90-003-03-340, issued 1/26/90)


Teledyne Economic Development (TED), a subsidiary                 ETA disallowedall $1,907,734questioned inthe OIG's
of Teledyne, Inc., operates five Job Corps centers for            audit of the Mississippi JTPA fixed unit price (FUP)
the Department of Labor. The Division of Cost Deter-              contractsbetween the Mississippi Service DeliveryArea
mination upheld $145,613 of questioned indirect costs             and the Mississippi Employment Security Commission.
and increased Services Administration. The Division of
Cost Determination upheld $40,436 of questioned indi-             The questioned costs include $906,721in unnecessary
rect costs and reduced the allocation base by $314,446            and unreasonable profits retained by the Commission
as a result of our audit of MTC's Calendar Year 1988              through PY 1987. ETA is seeking to recover $369,334
indirect costs. Questioned costs consisted of unreason-           of this amount, unless the State can provide documen-
able management bonuses and corporate reorganiza-                 tation that these funds were expended by the end of PY
tion expenses. The base was reduced for nonreimbur-               1989 for allowable JTPA activities. The remaining
sable expenses directly associated with Corporate                 $537,387in profit is not subject to Federal debt collec-
Headquarters.                                                     tion since the State documented these funds were ex-
                                                                  pended for permissible JTPA costs subsequent to the
                                                                  audit report.




                                                             51
Also included in the questioned cost was $314,581 in               Retention of DOL's Equity from Disposition of
interest income earned on JTPA profits through PY                  State-Owned Real Properties
1987. ETA disallowed this income and it remains                    (Audit Report Nos. 04-90-008-03-325, issued 11/3/8_
                                                                   04.9_-009-03-325, issued 11/3/89;, 04-90-010-03-325,
subject to Federal debt collection. These funds are not            issued 1/3/90;, and 04-90-011-03-325 issued 11/29/89)
reprogrammable     and must be remitted by the State to
the Department.                                                    ETA instructed 4 States to make restitution                of at least
                                                                   $2,881,623 applicable to DOL equity in 11 properties
ETA disallowed and established a debt for the remain-              which the ES programs of the respective States no
ing questioned costs of $686,432 which were profits                longer occupied. ETA has also instructed two of the
used to fund a training program titled "Project Up-                four States to make additional restitution for vacated
grade." These costs were questioned because the State              properties once the value of DOL's equity is deter-
failed to document the eligibility of the participants             mined. The OIG estimates that the value of DOL's
enrolled in the training program,                                  equity in the 2 additional           properties     will exceed $3
                                                                   million.
Hudson Institute Workforce 2000 Book Sales
(Audit Report No.18-90-012-03-380,
                                issued 2/2/90)                     To date, 1 State has made restitution of $565,559 by rec-
                                                                   ognizing an equivalent amount of DOL equity in 2
In a final management decision, ETA established a debt             replacement properties. The OIG will continue to work
of all $95,848 questioned by OIG in its limited scope              with ETA to ensure that acceptable restitution is made
audit of Hudson Institute's sales of the book Workforce            by the other 3 States for the remaining 11 properties no
2000.                                                              longer used for ES program purposes.

The Hudson Institute, under a $2 million ETA noncom-
petitive grant, earned and inappropriately retained profits        MANAGEMENT'S COMMITMENT
                                                                   TO REMEDY ADMINISTRATIVE ACTIONS
associated with the production and sale of its Workforce

2000 publication.                                                  Nonmonetary audit recommendations         arc important
                                                                   because they direct attention to improving internal
DOL Equity/Basis in State-Owned Real Property                      controls and operating procedures. They may propose
(Audit Report No.04-90-002-03.325,
                                issued 1/25/90)                    shifts in program emphasis or policy direction and make
                                                                   legislative or regulatory changes. Corrective actions
In April 1990, ETA agreed in substance with the OIG's              constitute reasonable remedies and include descrip-
recommendations invoMng DOL's equity in state-owned                tions and timetables of specific actions taken, comple-
real property. DOL's equity, which has an estimated                tion dates, and evidence to prove recommendations
basis of $297 million, was acquired through amortiza-              were implemented.
tion of cost with Federal funds provided for Employ-
ment Security (ES) programs' administration.     We                Following is one example of significant resolution ac-
recommended that ETA establish and maintain an                     tions by program officials to remedy administrative
inventory of DOL's equity and create a real estate                 deficiencies.
specialist position responsible for property manage-
ment. We also recommended that ETA revise its real
                                                                   UI Experience Rating and UI Trust Fund Internal
property management instructions to SESAs to include
reinstatement of DOL's prior approval requirements                 Controls
                                                                   (Audit Report   Nos. 03-83-203-03-315,   issued 8/16/85   and
for real estate transactions.                                      03-90-086-03-315,
                                                                                  issued 1/25/90)

ETA has begun implementing our recommendations.                    We are pleased to report that, during this period, we
Currently, ETA is testing a real property inventory                have resolved two outstanding audit reports related to
management system. OIG will assist ETA's real estate               the operation of experience rating in the States' unem-
specialist to implement our recommendations,                       ployment insurance programs' tax systems. Achieving




                                                              52
effective experience rating in these systems and provid-           the UTF accounting systems and the reporting struc-
ing the Secretary of Labor withadequate and accurate               ture, both to be accomplished over the next 2 years, will
experience rating information has been a major goal of             resolve this audit completely. Closure of the recom-
the OIG since 1985. We believe that, with ETA's                    mendations will occur upon implementation of a re-
agreement on the points made in these two audits, we               vised reporting system.
will have made significant progress toward this goal.
                                                                   OFCCP Needs to More Effectively and Consistently
The first of these reports, "Financing the Unemploy-               Enforce Federal EEO Regulations
ment Insurance Program Has Shifted From a System                   (Audit Report No.04-86-079-04-410,
                                                                                                   issued 9/8/88)
Based On Individual Employer's Responsibility To-
wards a Socialized System," had been previously re-                The OIG reported on a nationwide review aimed at
solved except for our recommendation that ETAimple-                strengthening  OFCCP's program enforcement           and
ment a mechanism for validating the accuracy of re-                improving its operational efficiency and effectiveness.
ported experience rating data. ETA's agreement to es-
tablish such a validation system over the next 16 months
                                                                   OFCCP has broad-ranging responsibility for ensuring
resolves this last recommendation,                                 nondiscrimination and affirmative action by more than
                                                                   215,000 Federal contractor establishments, employing
Plans submitted    by ETA call for a two-step process of
                                                                   more than 30 million workers and doing more than $167
validation.   In the short term, ETA will work to get the          billion worth of business with the United States Gov-
most complete Forms 204 from the States. In a longer               ernment. To administer the programs for Fiscal Year
term effort, ETA proposes use of a combination of
                                                                   1990, OFCCP was authorized a budget of $53 million
Benefits and Revenue Quality COntrol efforts to assure             and a total of 970 positions.
that SESAs systematically develop sufficient informa-
tion to enable them to assess whether or not existing              By January 1990, we were able to resolve all but 1 of the
systems properly make and account for benefit charge               46 original recommendations.    The unresolved issue
decisions,                                                         centered on "underutilization  and availability" of mi-
                                                                   norities or women in both the Federal contractors'
Closure of the recommendation    will occur upon ETA's             workforce and the general population. Current Federal
implementation    of these information systems which
                                                                   regulations define underutilization   as having "fewer
will allow ETA to validate experience rating informa-              minorities or women than would reasonably be ex-
tion. This is expected to occur in concert with implem-            pected based upon availability." OIG maintained that
entation of Revenue Quality Control in Calendar Year
                                                                   the ambiguities in determining "underutilization" should
1992.                                                              be clarified by regulation. OFCCP contended that the
                                                                   decision to address clarification by regulatory change
The second experience rating report resolved this pe-
                                                                   was a policy question to be answered by the Secretary.
riod, "The UI Program Needs to Improve Internal
Controls over Trust Fund Accounting and Reporting                  DOL's designated Audit Followup Official is the Dep-
Activities" was undertaken originally to establish the             utySecretary. Among other duties, the Audit Followup
feasibility of developing an experience rating validation          Official is required to ensure that disagreements be-
system through the SESAs' systems of Unemployment                  tween the OIG and the program agency involved are
Trust Fund (UTF)accounting.          While we did establish        resolved.    In February 1990, we requested that the
this feasibility, we also established that the SESAs' UTF
                                                                   Deputy Secretary act in his capacity as the Depart-
accounting systems were seriously deficient, not only in           ment's Audit Followup Official, as defined in OMB
collecting and accounting for experience rating data,              Circular A-50, to resolve the one remaining recommen-
but also in supporting program and financial informa-              dation.
tion routinely reported to the Department.
                                                                   The Deputy Secretary responded in October 1990 in a
ETA's agreement to facilitate SESA efforts to improve              memorandum "OIG's Recommendation Regarding New
UTF accounting systems through guidance letters, tech-             OFCCP Regulations to Define Underutilization."     The
nical assistance and direct funding of related automa-
                                                                   text of this document is reproduced in the Appendix to
tion grants, and their agreement to review Federal                 this report.
reporting requirements to ensure integration between
                                                                   The OIG considers this issue resolved.



                                                              53
                                                        Chapter 6

                                      MANAGEMENT                   DECISIONS


The Department's management evaluates audit findings and recommendations       and issues fi-
nal decisions in response to them. Management decisions should include necessary corrective
action.

The OIG is required to report on any significant management decision with which the OIG is
in disagreement.  Further, the OIG is also required to provide a description and explanation
of the reasons for any significant revised management decisions made during the reporting
period.

During this reporting period, revised management                  decisions were issued on eight audit reports,
all by ETA.


SIGNIFICANT REVISED                                             date. In an agreement dated July 6, 1990, ETA and the
MANAGEMENT DECISIONS                                            grantee stipulated that a total of $2,014,061 in costs
                                                                were disallowed. The grantee made a cash repayment
SDA Procurement Practices (Oregon)                              of $200,000 and was allowed to offset the remaining
(Audit Report No.09-88-548-03-340,
                                issued9/27/88)                  $1,814,061with costs that had been expended from state
                                                                appropriated funds. Accordingly, the appeals in both
In September 1990, ETA entered into a settlement                cases were dismissed on July 20.
agreement with the State of Oregon on the OIG's audit
of JTPA training and services' procurement by The               Commonwealth of Puerto Rico
Oregon Consortium. The settlement covered the audit             (Audit Report No. 02-86-010-03-340,   issued 5/27/88)
period and two additional Program Years.
                                                                The audit report questioned $2,038,633 in JTPA costs
Of the $5.9 million in profits acknowledged by the state        and contained a number of administrative     findings.
(as realized by The Oregon Consortium via improperly            ETA's final decision issued in November 1988 allowed
procured contracts during the five Program Years be-            $1,326 and disallowed $2,037,307. The Commonwealth
tween 1984 and 1988), ETA allowed $2.6 million as               appealed and, based on ETA's subsequent reviews of
having been spent on JTPA activity; allowed $1.6 mil-           documentation on several occasions, ETA allowed an
lion to be reprogrammed       before the end of Program         additional $269,305. As of September 1990, costs of
Year 1992; and required $1.7 million to be remitted by          $270,631 were allowed and disallowed costs stood at
the State of Oregon to the Department over the next             $1,768,002.
three years. The first installment ($100,000) of the
repayment required by the settlement agreement was              Operative Plasterers       and Cement Masons
submitted by Oregon in October 1990.                            (Audit Report No. 13-87-003-03-370,   issued 6/10/88)


Missouri    Department      of Social Services                  Based on this report, ETA questioned $706,879 in Job
(Audit Report No. 05-88-075-03-345,   issued 5/10/88)           Corps costs. Although ETA issued a final decision on
                                                                that report in March 1989, a subsequent audit provided
The grantee filed two ALJ appeals on $498,144 in                information which addressed a major issue of the origi-
disallowed CETA costs and $3,559,128 in disallowed              nal report. Accordingly, ETA issued a revised final
JTPA costs. The two cases were consolidated and a               decision in June 1990 which allowed $123,058, disal-
negotiated settlement was reached prior to the hearing          lowed $3,401 and set aside $580,420.

                                                           55
Florida Department of Labor and                                 North Dakota Job Service
Employment Security                                             (AuditReportNo.0_-90-112-50.$98,
                                                                                              issued1/30/90)
(AuditReportNo.04-89-193-50-598,
                              issued9/11/89)
                                                                In this report, auditors questioned and ETA subse-
The grantee appealed ETA's final decision.     ETA              quentlydisallowed $7,704 because of variousirregulari-
subsequently reviewed additional documentation and,             ties regarding JTPA participant eligibility. ETA sus-
in a memorandum dated August 15, 1990, allowed $906             tained the disallowance but amended its decision since
and determined   all administrative   findings were cor-        it is inappropriate to pursue recovery of costs that were
rected,                                                         not subject to debt collection in ETA's initial determi-
                                                                nation on the audit. ETA waived the grantee's liability
South Carolina Board of Technical and                           for all but $3,198 for which a debt has been established.
Comprehensive Education
(AuditReport Nos.04-89-131-03-340,
                                and
04-89-133-83-355,
               issued4/26/89)

In these reports, auditors questioned and ETA subse-
quendy disallowed $2,247 because purchases were made
without evidence of competition.      The auditee ap-
pealed. Based upon further documentation and expla-
nation, ETA allowed the costs in August 1990.




                                                           56
         Chapter 7

AUDIT SCHEDULES AND TABLES




             57
59
                     Summary       of Audit Activity of DOL Programs
                                 April 1 - September   30, 1990


                                                                                          Amount
                      Reports       Grant/Contract            Unsupported           Recommended
Agency                 Issued       Amount Audited                   Costs _         Disallowance

OSEC                         2                 $2,141                         0                     0

VETS                         6            $3,562,615                          0                     0

ETA                        169       $57,738,454,273           $118,766,405               $46,273

ESA                          2          $600,941,971                          0                     0

MSHA                         4              $430,795                          0                     0

OASAM                       18     $131,196,431,385             $11,527,549              $188,912

OIG                          1              $137,827                          0                     0

OSHA                        14          $246,251,402               $441,224               $32,814

BLS                          1                         0                   0                    0

Multi                       27        $2,251,251,733               $189,796                     0

Other Agencies               1                         0                   0                    0

Totals                     245     $192,037,464,142            $130,924,974              $267,999




_UnsupportedCostsinclude $99,314,000in Funds Recommendedfor Better Use as reported in
"FederalEmployees' CompensationAccount,"Audit Report No. 12-90-012-03-315.




                                                 60
              Summary     of Audit Activity   of ETA Programs
                        April 1 - September   30, 1990

                                                                          Amount
              Reports      Grant/Contract         Unsupported       Recommended
Program        Issued      Amount Audited                Costs       Disallowance


ADMIN               2      $57,000,000,000                      0                   0

Comptroller         1              $188,000                     0                   0

UIS                 2          $121,338,687        $99,314,000                      0

SESA                2          $292,281,356                $1,673                   0

JTPA               12           $37,360,103        $17,006,643                      0

CETA                9           $24,020,001         $1,699,727                      0

DINAP              76           $36,478,092              $439,339            $979

DOWP               13          $137,847,566               $40,712                   0

DSFP               24           $28,903,558                $1,780         $45,294

OJC                15           $50,276,859               $43,507                   0

BAT                 3            $4,492,008                     0                   0

OSPPD              10            $5,268,043              $219,024                   0

Totals            169       $57,738,454,273       $118,766,405            $46,273




                                       61
             Summary of Audits Performed Under the Single Audit Act
                          April 1 - September 30, 1990


                                                            DOL          Amount of              Amount
               Entities        Reports        Grant/Contract          Unsupported       Recommended
Agency         Audited          Issued        Amount Audited                 Costs       Disallowance


OSEC                   0                 1                 $2,141                   0                   0

VETS                   3               5                3,562,615                   0                   0

ETA                  65              130          $675,608,821             $262,916              $45,294

MSHA                   1               4                $430,795                    0                   0

OSHA                   3              10             $5,769,104               $1,861             $32,814

Multi Agency          14              27        $2,251,251,733             $189,796                     0

Other Agencies         1               1                         0                  0                   0

Totals               87             178         $2,936,625,209             $454,573             $78,108



Note:DOL has cognizantresponsibilityfor specificentitiesunderthe SingleAuditAct. More than one auditreport
mayhavebeen transmittedor issuedfor an entityduringthistimeperiod. Reports are transmittedor issuedbased
onthe typeof fundingand the agency/programresponsiblefor resolution. Duringthis period,DOL issuedreports
on87 entitiesfor whichDOL wascognizant;in addition,DOL issued91reports whichincludeddirectDOL funds
for whichDOL wasnot cognizant.




                                                   62
              Summary of Audits Performed Under the Single Audit Act
                               Multi-Agency Reports
                           April - September 30, 1990


                                                              Amount of              Amount
                                    Number of               Unsupported        Recommended
       Program                   Recommendations                  Costs         Disallowance


ETA:
 UIS                                     4                   $5,465                      0
 USES                                    1                   $1,606                      0
 SESA                                    3                  $50,062                      0
 WIN                                     1                  $22,291                      0
 JTPA                                    2                   $4,662                      0
 BAT                                     1                  $40,520                      0

OASAM:
 OPGM                                     1                  $6,597                      0

BLS:
 BLSG                                    2                  $58,593                      0

Totals                                  15                 $189,796                      0



Note: Multi-Agency Programs reports relate to Single Audit reports only. The report may be on a statewide audit
where DOL has accepted "lead" cognizancy or it may be on a single entity under the direct responsibility of DOL.
If multiple DOL programs were audited, the multiple-agency designation was used. Individual recommendations
within the report designate which agency/program is responsible for resolution. Fifteen recommendations are
contained within the 27 multiple-agency reports issued this period.




                                                      63
64
65
                       Status     of Resolution Actions on Beginning Balance
                                 and Unresolved  Audits Over 6 Months


                                    April 1, 1990                        Resolved             September 30, 1990
Agency                          Balance Unresolved                    (Decreases) _          Balance Unresolved 2
Program                       Reports           Dollars         Reports           Dollars   Reports       Dollars



OSEC                             0                   0              0                   0       0               0
VETS                            19         $3,083,190              13         $2,125,736        6        $29,781

ETA:
  ADMIN                          2         $467,666                 1                0          1              0
  UIS                            6                 0                4                0          2              0
  SESA                          10     $305,150,489                 7    $298,088,231           3    $6,989,235
  JTPA                          18      $44,008,071                12      $2,516,719           6    $3,040,742
  CETA                           3         $625,831                 3        $625,831           0              0
  DINAP                         24         $668,309                22        $667,922           2              0
  DOWP                           2         $454,718                 2        $454,718           0              0
  DSFP                           7            $6,419                7           $6,419          0              0
  OJC                            1            $2,358                0                0          1              0
  OSPPD                          1          $95,848                 1         $95,848           0              0

ESA                              3                    0            2                    0      1                0
OLMS                             0                    0            0                    0      0                0
MSHA                             1                    0            1                    0      0                0
OASAM                           10       $14,289,867               9        $1,476,232         1    $12,813,635
SOL                              0                  0              0                  0        0               0
OIG                              0                  0              0                  0        0               0
OSHA                           2              $1,743                2           $1,743         0               0
BLS                            0                    0               0                 0        0               0
PWBA                           2                   0                1                0         1               0
Multi                         31         $2,512,084                25      $1,749,765          6       $106,190
Other Agencies                 2        $19,915,566                 2     $19,915,566          0               0

TOTALS                       144       $391,282,159            114       $327,724,730         30    $22,979,583


1Reflects resolution   activity for reports which are unresolved at the beginning of the period.

2Includes only those reports whose unresolved      status exceeds 180 days.

Beginning Balance Unresolved includes $296,054,000 in recommendations     that funds be put to better use.
Sustained recommendations  that funds be put to better use (Decreases) total $296,054,000 for the period.

See next schedule for breakout of "unsupported      costs."

Ending Balance Unresolved       includes $21,941,785 under litigative hold.

                                                              66
                       Status    of Resolution Actions on Beginning Balance
                                and Unresolved  Audits Over 6 Months
                                             Unsupported             Costs


                                   April 1, 1990                     Resolved               September 30, 1990
Agency                         Balance Unresolved                  (Decreases) _           Balance Unresolved 2
Program                      Reports           Dollars      Reports           Dollars     Reports       Dollars



OSEC                            0                   0           0                     0       0               0
VETS                            2           $115,295            1              $85,514        1        $29,781

ETA:
 ADMIN                           1          $467,666            0                     0       1               0

 UIS                             0                   0          0                     0       0               0
 SESA                            4       $6,215,094              3             $42,402        1     $6,172,692
 JTPA                           11      $42,150,804              6            $749,607        5     $2,950,587
 CETA                            3         $554,362              3            $554,362        0               0
 DINAP                          12         $668,308             11            $667,921        1               0
 DOWP                            2         $454,718              2            $454,718        0               0
 DSFP                            2           $3,299              3              $3,299        0               0
 OJC                             0                 0             0                    0       0               0
 OSPPD                           0                 0             0                    0       0               0

ESA                              0                 0            0                    0        0               0
OLMS                             0                 0            0                    0        0               0
MSHA                             0                 0            0                    0        0               0
OASAM                            8      $13,779,569             7             $965,934        1    $12,813,635
SOL                              0                 0            0                    0        0               0
OIG                              0                 0            0                     0       0               0
OSHA                             0                 0            0                     0       0               0
BLS                              0                 0            0                     0       0               0
PWBA                             0                 0            0                     0       0               0
Multi                           17       $1,603,954             12            $841,635        5       $106,190
Other Agencies                   0                 0             0                    0       0               0

TOTALS                          63      $66,013,069          48              $4,365,392      15    $22,072,885




_Reflects resolution   activity for reports which are unresolved at the beginning of the period.

2Includes only those reports whose unresolved status exceeds 180 days.

These unsupported costs are incorporated into the "Status of Resolution on Beginning Balance and Unresolved
Audits Over 6 Months" schedule on the previous page. They are broken out as required by P.L. 100-504.

                                                           67
                               Unresolved     Audits Over 6 Months
                                     April 1 - September     30, 1990
                             Audit                                          No of           Audit
Agency       Program      Report Number      Name of Audit/Auditee               Rec   Exceptions

Under Litigation:

ETA          SESA         05-90-014-03-325   OHIO BUREAU OF EMPL SERVICES          7    $6,172,692
ETA          JTPA         06-89-002-03-340   HOUSTON JTPA GRANT FUNDS              1      $511,884
ETA          JTPA         06-89-003-03-340   NEW ORLEANS JTPA                      1    $2,338,231
OASAM        OCD          05-83-065-07-742   CITY OF DETROIT 1                    11   $12,813,635
MULTI        ALLDOL       03-89-083-50-598   COMMONWEALTH      OF PA               5      $105,343

Awaiting Resolution:

VETS         CONTR        18-90-001-02-201   BLINDED VETERANS ASSNz                3      $29,781
VETS         VETSPM       04-90-048-02-210   GULF COAST BUSINESS SVC 3             5             0
ETA          UIS          03-89-063-03-315   MD UI EXPERIENCE    RATING 4          3             0
ETA          UIS          03-89-067-03-315   UT UI EXPERIENCE    RATING 4          4             0
ETA          SESA         04-87-030-03-325   SESA INVESTMENT OF UI FUNDS 5         3             0
ETA          SESA         04-90-011-03-325   CALIF. SESA REAL PROPERTY 6           2     $816,543
ETA          JTPA         05-90-001-03-340   KANSAS CITY FULL EMPL CNCL 7          5     $186,241
ETA          JTPA         06-90-105-03-340   ASSN FOR RETARDED      CITIZENS 9     5             0
ETA          JTPA         06-90-106-03-340   ASSN FOR RETARDED      CITIZENS 9     4       $4,386
ETA          DINAP        09-90-501-03-355   SO. CALIF. INDIAN CENTER 9            1             0
ESA          OFCCP        04-86-079-04-410   EFFECTIVENESS    & EFFICIENCY 5       1             0
PWBA         ADMIN        09-90-001-12-001   IPA ERISA RPTS NEED CHANGES l°        3             0
MULTI        ALLDOL       03-89-082-50-598   STATE OF DELAWARE A-1288              1         $457
MULTI        ALLDOL       05-89-083-50-598   MISSOURI DIV. OF EMPLOYMENT 3         1         $120
MULTI        ALLDOL       05-90-034-50-598   STATE OF WISCONSIN A-1283             1         $270
MULTI        ALLDOL       09-90-522-50-598   AMERICAN SAMOA A-1289                 1             0

TOTAL AUDIT EXCEPTIONS:                                                           68   $22,979,583



Notes are located on the following page.




                                                   68
Notes to "Unresolved Audits Over 6 Months Precluded From Resolution"

lIn August, 1984, OIG issued an audit rcport on Detroit's indirect costs under CETA. The city appealed. After
various interim orders, on October 12, 1990, thc ALJ issued a Final Order requiring that the indirect costs
allocablc to CETA for Fiscal Ycars 1978-1981 total $6,209,640 and that Detroit pay DOL an additional
$800,000, which is the amount owcd as a result of direct cost disputcs settled in May 1987. Detroit has indicated
it plans to appeal.

2DOL has rcpeatcdly rcqucstcd documentation from this grantcc. To date BVA has providcd none. According
to OASAM, BVA has no other DOL grants.

3Appropriatc documentation was reccivcd from thc Department in October 1990 to resolve the outstanding
recommcndations.

4OIG informed ETA that rcsolution of these rcports will rcquirc ETA's contacting the states involved to obtain
corrcctivc action plans. So far, ETA has rcfuscd to rcqucst thc states to provide corrective action plans.

5OIG was unable to agrcc with Managcmcnt's Dccision; thcrcforc, a request for a final determination was
clcvatcd to thc Dcputy Sccrctary, the Audit Followup Official. After the end of thc period, thc Deputy
Secretary rcspondcd and the rcports wcrc rcsolvcd.

6ETA's and OIG's rcspcctivc Counscls arc attempting to work out diffcrcnccs regarding methodology to
dctcrmine equity in thc real property at issue.

7Thc States have 180 days to issuc a final managcmcnt dccision. ETA and thc OIG have an additional
180 days to accept Statc-lcvcl dccisions.

8All recommendations wcrc resolved bcforc the end of the pcrlod cxccpt onc rclatlng to OSHA.       The OSHA
recommendation was rcsolvcd and closed aficr thc period, on Octobcr 11, 1990.

PETA cxpccts to issuc Managcmcnt Decisions on thcsc rccommcndations        within the next reporting period.

l°A revised industry audit guide is being developed by AICPA with input from OIG and PWBA. Scc Chapter 1
for discussion. Also, OIG and PWBA arc discussing ncw rcquircmcnts to cstablish scparatc ovcrsight for plan
audits and implement direct rcporting of certain issucs to DOL.




                                                       69
70
                               Final Audit Reports Issued
                               April 1 - September 30, 1990
                                       Date Sent
Audit                                  to Program
Report Number       Agency   Program   Agency       Name of Audit/Auditee


02-90-222-01-010     OSEC    ASP       02-JUL-90    Nassau County Single Audit

02-90-219-02-210     VETS    VETSPM    02-JUL-90    Suffolk County Single Audit
02-85-044-03-345     ETA     CETA      23-JUL-90    Municipality of San Juan
02-85-045-03-345     ETA     CETA      01-AUG-90    Municipality of San Juan
02-86-026-03-345     ETA     CETA      22-MAY-90    City of Elizabeth
02-86-027-03-345     ETA     CETA      22-MAY-90    City of Elizabeth
02-90-205-03-345     ETA     CETA      07-AUG-90    Westchcster/Putnam    Consortium Closeout
02-90-241-03-345     ETA     CETA      15-JUN-90    Buffalo, New York A-128
02-90-242-03-345     ETA     CETA      15-JUN-90    Essex County, N.J. A-128
02-90-244-03-345     ETA     CETA      02-JUL-90    Puerto Rico Office of Energy A-128
02-90-245-03-345     ETA     CETA      23-JUL-90    Municipality of San Juan A-128

02-90-230-03-355     ETA     DINAP     23-MAY-90    Rhode Island Indian CouncilA-128
02-90-232-03-355     ETA     DINAP     15-JUN-90    Seneca Nation of Indians A-128
02-90-234-03-355     ETA     DINAP     15-JUN-90    Saint Regis Mohawk Tribe A-128
02-90-249-03-355*    ETA     DINAP     17-SEP-90    Tribal Governors, Inc. A-128
02-90-251-03-355"    ETA     D1NAP     17-SEP-90    Tribal Governors, Inc. A-128

02-90-225-03-365*    ETA     DSFP      02-JUL-90    Rural Opportunities,    Inc. A-128

02-90-223-03-370     ETA     OJC       09-MAY-90    Puerto Rico Volunteer    Youth Corps

02-90-208-50-598    MULTI    AL/DOL    26-JUN-90    State of Maine A-128
02-90-217-50-598    MULTI    AL/DOL    24-APR-90    City of HartfordA-128
02-90-220-50-598    MULTI    AL/DOL    02-JUL-90    City of Syracuse A-128
02-90-226-50-598    MULTI    AL/DOL    01-JUN-90    State of Rhode Island A-128
02-90-227-50-598*   MULTI    AL/DOL    ll-APR-90    State of New Hampshire A-128
02-90-233-50-598    MULTI    AL/DOL    23-JUL-90    State of New York A-128
02-90-235-50-598    MULTI    AL/DOL    30-APR-90    State of Vermont A-128
02-90-238-50-598    MULTI    AL/DOL    04-SEP-90    City of New York A-128
02-90-252-50-598    MULTI    AL/DOL    25-SEP-90    State of Vermont A-128

03-90-042-03-340    ETA      JTPA      26-JUN-90    OIC of America, Inc.
03-90-055-03-340*   ETA      JTPA      27-SEP-90    Va. Governor's Employment       & Training A-128
03-90-063-03-340*   ETA      JTPA      27-SEP-90    Mattaponi-Pamunkey-Monacan        A-128
03-90-064-03-340*   ETA      JTPA      27-SEP-90    Mattaponi-Pamunkey-Monacan        A-128

03-90-057-03-355    ETA      DINAP     27-SEP-90    Three Rivers Council A-128

03-90-031-03-360"   ETA      DOWP      02-APR-90    National Council of Senior Citizens A-128
03-90-033-03-360*   ETA      DOWP      16-MAY-90    National Caucus, Center on Black Aged A-128
03-90-034-03-360*   ETA      DOWP      16-MAY-90    National Caucus, Center on Black Aged A-128
03-90-066-03-360    ETA      DOWP      27-SEP-90    City of Baltimore FY 88 A-128
03-90-067-03-360    ETA      DOWP      27-SEP-90    Va. Department for the Aging A-128
03-90-074-03-360*   ETA      DOWP      28-SEP-90    American Association of Retired Persons A-128


                                               71
                                Final Audit Reports Issued
                               April 1 - September 30, 1990
                                       Date Sent
Audit                                  to Program
Report Number       Agency   Program   Agency       Name of Audit/Auditee


03-90-032-03-370     ETA     OJC       24-JUL-90    Basic Education    Review
03-90-044-03-370     ETA     OJC       18-JUN-90    Imprest Fund Procedures:  Meal Tickets
03-90-062-03-370     ETA     OJC       24-SEP-90    Program Results Statement Compilation PY 87
03-90-065-03-370     ETA     OJC       24-SEP-90    Program Results Statement Compilation PY 88

03-90-036-03-375*   ETA      BAT       16-JUL-90    OIC of America A-128
03-90-037-03-375*   ETA      BAT       16-JUL-90    OIC of America A-128
03-90-038-03-375*   ETA      BAT       16-JUL-90    OIC of America A-128

03-90-002-03-380     ETA     SPPD      13-AUG-90    Goodwill Industries A-128

03-90-023-00-433    ESA      CMWC      18-JUN-90    Black Lung Comp/Medical          Bill Payment System

03-90-054-06-601    MSHA     GRTEES    27-SEP-90    Va. Mines, Minerals, and EnergyA-128

03-90-043-10-101    OSHA     OSHAG     28-SEP-90    OSHA New Direction Grant
03-90-059-10-101    OSHA     OSHAG     27-SEP-90    St. Mary's College of Maryland A-128
03-90-060-10-101    OSHA     OSHAG     27-SEP-90    St. Mary's College of Maryland A-128
03-90-061-10-101    OSHA     OSHAG     27-SEP-90    St. Mary's College of Maryland A-128

03-90-001-50-598"   MULTI    AL/DOL    01-AUG-90    State of West VirginiaA-128

00-90-070-02-210    VETS     VETSPM    07-SEP-90    FY 89 Nashville/Davidson        CountyA-128

00-90-053-03-355    ETA      DINAP     16-APR-90    FY   88   Seminole Tribe of Florida A-128
04-90-058-03-355*   ETA      DINAP     18-JUN-90    FY   89   Metrolina Native American Assn A-128
00-90-065-03-355    ETA      DINAP     30-AUG-90    FY   89   Seminole Tribe of Florida A-128
00-90-069-03-355    ETA      DINAP     06-SEP-90    FY   88   Miccosukee Tribe A-128

04-90-052-03-360    ETA      DOWP      13-APR-90    FY 87-88 S.C. Committee on Aging A-128
00-90-055-03-360    ETA      DOWP      21-MAY-90    FY 88 Georgia Human Resources A-128
04-90-071-03-360    ETA      DOWP      26-SEP-90    FY 89 Georgia Human Resources A-128

00-90-056-03-365*   ETA      DSFP      05-JUN-90    FY   89 Mississippi Delta Farmworkers A-128
04-90-057-03-365*   ETA      DSFP      13-JUN-90    FY   89 Homes in Partnerships A-128
04-90-060-03-365*   ETA      DSFP      09-JUL-90    FY   89 Delta Housing Development Corp. A-128
00-90-063-03-365*   ETA      DSFP      15-AUG-90    FY   89 Tennessee Opportunity Programs A-128
04-90-067-03-365*   ETA      DSFP      04-SEP-90    FY   88 Rural Alabama Development Corp. A-128
04-90-068-03-365*   ETA      DSFP      04-SEP-90    FY   89 Lee County Florida HousingAuthorityA-128

04-90-062-06-601    MSHA     GRTEES    26-JUL-90    FY 89 S.C. Midlands Technical College A-128

00-90-050-10-101    OSHA     OSHAG     08-MAY-90    AFL-CIO      United Furniture   Workers
00-90-066-10-101    OSHA     OSHAG     30-AUG-90    FY 88-89 University of Alabama/Tuscaloosa        A-128

04-90-054-50-598*   MULTI    AL/DOL    01-MAY-90    FY 89 Georgia Department        of Labor A-128

                                              72
                                Final Audit Reports Issued
                               April 1 - September 30, 1990
                                       Date Sent
Audit                                  to Program
Report Number       Agency   Program   Agency       Name of Audit/Auditee


04-90-059-50-598"    MULTI   AL/DOL    26-JUN-90    FY 89 Youth Service U.S.A., Inc. A-128
04-90-064-50-598     MULTI   AL/DOL    06-SEP-90    FY 89 State of Mississippi A-128

04-90-061-98-599"    OT AGY NO/DOL     12-JUL-90    FY 89 Brevard County, Florida A-128

05-90-059-03-325*    ETA     SESA      12-JUL-90    Illinois Employment    Security A-128

05-90-041-03-340"    ETA     JTPA      19-APR-90    Cook County, Illinois A-128
05-90-045-03-340     ETA     JTPA      04-MAY-90    Kansas Administrative Service Center
05-90-058-03-340     ETA     JTPA      28-SEP-90    Greater Flint OIC and Jobs Central

05-90-044-03-355*    ETA     DINAP     30-APR-90    Indian Center, Inc. A-128
05-90-046-03-355"    ETA     DINAP     24-MAY-90    Potawatomi Indian Nation A-128
05-90-048-03-355*    ETA     DINAP     25-MAY-90    Milwaukee Area American Indian Manpower A-128
05-90-050-03-355*    ETA     DINAP     31-MAY-90    Michigan Indian Employ. & Training Services A-128
05-90-053-03-355*    ETA     DINAP     12-JUN-90    Kansas/Southeast  Nebraska Tribes A-128
05-90-054-03-355*    ETA     DINAP     19-JUN-90    Minneapolis American Indian Center A-128
05-90-061-03-355"    ETA     DINAP     01-AUG-90    American Indian Fellowship Association A-128

05-90-047-03-365*    ETA     DSFP      23-MAY-90    Minnesota Migrant Council A-128
05-90-063-03-365*    ETA     DSFP      08-AUG-90    Rural Missouri, Inc. A-128
05-90-066-03-365*    ETA     DSFP      ll-SEP-90    Nebraska Association of Farmworkers          A-128
05-90-067-03-365*    ETA     DSFP      26-SEP-90    Illinois Migrant Council A-128

05-90-052-03-370     ETA     OJC       01-JUN-90    Vinnell Corporation
05-90-062-03-370     ETA     OJC       09-JUL-90    Hubert H. Humphrey       Center

05-90-064-03-380*    ETA     SPPD      08-AUG-90    Preparation,   Recruitment,   and Employment         A-128
05-90-065-03-380*    ETA     SPPD      08-AUG-90    Preparation,   Recruitment,   and Employment         A-128

05-90-055-07-711     OASAM   OA        06-JUN-90    OASAM Imprest Fund

05-90-049-07-735     OASAM   OPGM      01-JUN-90    Illinois Central Management       Services

05-90-035-10-001     OSHA    ADMIN     28-JUN-90    OSHA'S Annual Report to the President
05-90-056-10-001     OSHA    ADMIN     28-SEP-90    FY 89 Financial Statements

05-90-042-10-101"    OSHA    OSHAG     24-APR-90    Iowa Labor Services A-128

05-90-040-50-598*    MULTI   AL/DOL    ll-APR-90    Iowa Economic Development A-128
05-90-043-50-598*    MULTI   AL/DOL    26-APR-90    Kansas Human Resources A-128
05-90-051-50-598"    MULTI   AL/DOL    06-JUN-90    Iowa Job Service A-128
05-90-057-50-598*    MULTI   AL/DOL    28-JUN-90    Indiana Employment & Training Services A-128
05-90-060-50-598*    MULTI   AL/DOL    26-JUL-90    Indiana Department of Labor A-128




                                               73
                               Final Audit Reports Issued
                               April 1 - September 30, 1990
                                       Date Sent
Audit                                  to Program
Report Number       Agency   Program   Agency       Name of Audit/Auditee


06-89-006-03-340    ETA      JTPA      17-SEP-90    Louisiana Department of Employment
06-90-001-03-340    ETA      JTPA      28-SEP-90    Big Five Community Service
06-90-003-03-340    ETA      JTPA      30-APR-90    Louisiana Department of Employment

06-90-125-03-355"   ETA      DINAP     21-MAY-90    United Urban Indian CouncilA-128
06-90-127-03-355"   ETA      DINAP     07-JUN-90    Four Tribes Consortium of Oklahoma A-128
06-90-285-03-355    ETA      DINAP     02-APR-90    Comanche Indian Tribe A-128
06-90-286-03-355    ETA      DINAP     03-APR-90    United Sioux Tribes of South Dakota A-128
06-90-287-03-355    ETA      DINAP     05-APR-90    Ponca Tribe of Oklahoma A-128
06-90-288-03-355    ETA      DINAP     ll-APR-90    Santa Clara Indian Pueblo A-128
06-90-289-03-355    ETA      DINAP     24-APR-90    Assiniboine and Sioux Tribes A-128
06-90-290-03-355    ETA      DINAP     24-APR-90    Rosebud Sioux Tribe A-128
06-90-291-03-355    ETA      DINAP     24-APR-90    Kiowa Tribe of Oklahoma A-128
06-90-292-03-355    ETA      DINAP     24-APR-90    Jicarilla Apache Tribe A-128
06-90-293-03-355    ETA      DINAP     23-MAY-90    Otoe-Missouria Tribe of Oklahoma A-128
06-90-295-03-355    ETA      DINAP     13-JUN-90    Pawnee Tribe of Oklahoma A-128
06-90-296-03-355    ETA      DINAP     15-JUN-90    Caddo Indian Tribe of Oklahoma A-128
06-90-298-03-355    ETA      DINAP     26-JUN-90    Oklahoma Inter-Tribal Council A-128
06-90-299-03-355    ETA      DINAP     21-JUN-90    Muscogee Creek Nation A-128
06-90-300-03-355    ETA      DINAP     27-JUN-90    Cheyenne River Sioux Tribe A-128
06-90-301-03-355    ETA      DINAP     26-JUN-90    Shoshone and Arapaho Tribes A-128
06-90-302-03-355    ETA      DINAP     01-AUG-90    Citizens Band of Potawatomi, Oklahoma A-128
06-90-303-03-355    ETA      DINAP     16-JUL-90    Seminole Nation of Oklahoma A-128
06-90-304-03-355    ETA      DINAP     ll-JUN-90    United Tribes Technical College A-128
06-90-306-03-355    ETA      DINAP     02-AUG-90    Central Tribes, Shawnee Area A-128
06-90-307-03-355    ETA      DINAP     13-AUG-90    Lower Brule Sioux Tribe A-128
06-90-308-03-355*   ETA      DINAP     15-AUG-90    Dallas Inter-Tribal Center A-128
06-90-310-03-355    ETA      DINAP     15-AUG-90    Southern Ute Indian Tribe A-128
06-90-311-03-355    ETA      DINAP     22-AUG-90    Confederation of Salish and Kootenai A-128
06-90-313-03-355    ETA      DINAP     05-SEP-90    Chippewa Cree Tribe A-128
06-90-314-03-355    ETA      DINAP     28-SEP-90    Ramah Navajo School Board A-128
06-90-315-03-355    ETA      DINAP     28-SEP-90    Kaw Tribe of Oklahoma A-128
06-90-316-03-355    ETA      DINAP     14-SEP-90    Ute Mountain Ute Tribe A-128
06-90-317-03-355    ETA      DINAP     14-SEP-90    Ute Mountain Ute Tribe A-128
06-90-319-03-355    ETA      DINAP     25-SEP-90    Jicarilla Apache Tribe A-128

06-90-294-03-360    ETA      DOWP      31-MAY-90    Wyoming Health and Social Services A-128
06-90-297-03-360    ETA      DOWP      15-JUN-90    Arizona Human Services, Division of Aging A-128
06-90-312-03-360    ETA      DOWP      04-SEP-90    New Mexico Agency on Aging A-128

06-90-123-03-365"   ETA      DSFP      09-APR-90    Utah Rural Development Corporation A-128
06-90-124-03-365"   ETA      DSFP      09-APR-90    Utah Rural Development Corporation A-128
06-90-130-03-365"   ETA      DSFP      18-JUL-90    Oro Development Corporation A-128
06-90-131-03-365"   ETA      DSFP      19-JUL-90    Rocky Mountain SER Jobs for Progress, Inc. A-128

06-90-002-04-431    ESA      FECA      06-JUL-90    FECA/Medical    Bill Payment System


                                               74
                               Final Audit Reports Issued
                               April 1 - September 30, 1990
                                       Date Sent
Audit                                  to Program
Report Number       Agency   Program   Agency       Name of Audit/Auditee


06-90-318-06-601    MSHA     GRTEES    10-SEP-90    New Mexico Energy, Mineral, Nat. Resources A-128

06-90-005-09-001    OIG      ADMIN     28-SEP-90    Dodd, Frazier, J&T Contract   Billing

06-90-128-10-101"   OSHA     OSHAG     13-JUN-90    Wyoming Labor Statistics A-128
06-90-309-10-101    OSHA     OSHAG     16-AUG-90    North Dakota Health Consolidated       Labs A-128

06-90-126-50-598"   MULTI    AL/DOL    15-MAY-90    Wyoming Employment Security Commission A-128
06-90-129-50-598"   MULTI    AL/DOL    21-JUL-90    Arkansas Department of Labor A-128

09-90-202-01-001    OSEC     ADMIN     05-JUN-90    DOL Criminal Enforcement

09-90-579-02-210"   VETS     VETSPM    05-JUL-90    San Francisco PIC A-128
09-90-609-02-210"   VETS     VETSPM    19-SEP-90    NORTEC Consortium A-128
09-90-610-02-210"   VETS     VETSPM    19-SEP-90    NORTEC Consortium A-128

09-90-603-03-315"   ETA      UIS       06-SEP-90    Alaska DOL Unemployment       Comp. Fund A-128

09-90-597-03-325*   ETA      SESA      21-AUG-90    Cooperative   Personnel Services A-128

09-90-200-03-340    ETA      JTPA      09-APR-90    Idaho JTPA "Profits"
09-90-201-03-340    ETA      JTPA      20-JUN-90    Program Outcomes-Ventura      County

09-90-534-03-355    ETA      DINAP     22-AUG-90    San Carlos Apache Tribe A-128
09-90-556-03-355    ETA      DINAP     17-APR-90    Indian Center of Jan Jose A-128
09-90-564-03-355*   ETA      DINAP     18-APR-90    Alu Like, Inc. A-128
09-90-565-03-355    ETA      DINAP     19-APR-90    Nez Perce Tribe A-128
09-90-566-03-355*   ETA      DINAP     27-APR-90    Southern California Indian Center A-128
09-90-569-03-355    ETA      DINAP     ll-MAY-90    Hopi Tribe A-128
09-90-570-03-355    ETA      DINAP     21-MAY-90    White Mountain Apache Tribe A-128
09-90-571-03-355"   ETA      DINAP     21-MAY-90    Western Wa. Indian Employment & TrainingA-128
09-90-572-03-355    ETA      DINAP     25-MAY-90    Association/Village  Council Presidents A-128
09-90-574-03-355    ETA      DINAP     25-MAY-90    Kootenai Tribe of Idaho A-128
09-90-575-03-355*   ETA      DINAP     04-JUN-90    Candelaria American Indian Council A-128
09-90-576-03-355    ETA      DINAP     20-JUN-90    Tule River Tribal Council A-128
09-90-577-03-355    ETA      DINAP     20-JUN-90    Kodiak Area Native Association A-128
09-90-582-03-355    ETA      DINAP     19-JUL-90    Kenaitze Indian Tribe FY 82 A-128
09-90-583-03-355    ETA      DINAP     19-JUN-90    Kenaitze Indian Tribe FY 83 A-128
09-90-584-03-355*   ETA      DINAP     10-AUG-90    Ya-Ka-Ama Indian Education & Develop. A-128
09-90-585-03-355*   ETA      DINAP     07-AUG-90    Native Americans/Community   Action A-128
09-90-589-03-355    ETA      DINAP     07-AUG-90    Hopi Tribe A-128
09-90-595-03-355    ETA      DINAP     10-AUG-90    Tanana Chiefs Conference A-128
09-90-596-03-355*   ETA      DINAP     21-AUG-90    Northern Ca. Indian Development Council A-128
09-90-598-03-355*   ETA      DINAP     21-AUG-90    California Indian Manpower Consortium A-128
09-90-600-03-355"   ETA      DINAP     21-AUG-90    Candelaria American Indian Council A-128
09-90-604-03-355*   ETA      DINAP     24-SEP-90    Kootenai Tribe of Idaho A-128


                                               75
                               Fina_ Audit Reports Issued
                               April 1 - September 30, 1990
                                       Date Sent
Audit                                  to Program
Report Number       Agency   Program   Agency       Name of Audit/Auditee


09-90-606-03-355"    ETA     DINAP     13-SEP-90    Arizona Indian Centers A-128
09-90-607-03-355*    ETA     DINAP     13-SEP-90    Arizona Indian Centers A-128
09-90-608-03-355     ETA     DINAP     19-SEP-90    Colville Confederated Tribes A-128

09-90-586-03-360*    ETA     DOWP      07-AUG-90    Nacional Pro Personas Mayores A-128

09-90-548-03-365*   ETA      DSFP      22-JUN-90    Portable Practical Education Prep. A-128
09-90-560-03-365*   ETA      DSFP      ll-APR-90    Portable Practical Education Prep. A-128
09-90-561-03-365    ETA      DSFP      10-APR-90    Rural Community Assistance A-128
09-90-568-03-365    ETA      DSFP      07-JUN-90    Alaska Department of Administration A-128
09-90-573-03-365*   ETA      DSFP      25-MAY-90    Idaho Migrant Council A-128
9-90-578-03-365*    ETA      DSFP      26-JUN-90    Center for Employment Training A-128
09-90-580-03-365*   ETA      DSFP      09-JUL-90    Proteus Training and Employment A-128
09-90-588-03-365*   ETA      DSFP      07-AUG-90    Central Valley Opportunity Center A-128
09-90-593-03-365*   ETA      DSFP      14-AUG-90    Ca. Human Development Corporation A-12B

09-90-562-03-370    ETA      OJC       17-APR-90    University of Nevada, Reno A-128
09-90-567-03-370*   ETA      OJC       21-MAY-90    YWCA - Los Angeles A-128

09-90-594-06-601"   MSHA     GRTEES    10-AUG-90    Idaho DOL & Industrial   Services A-128

09-90-590-10-101    OSHA     OSHAG     10-AUG-90    City of Portland, Oregon A-128
09-90-592-10-101"   OSHA     OSHAG     10-AUG-90    Arizona Industrial Committee A-128
09-90-587-10-101    OSHA     OSHAG     07-AUG-90    Boise State University A-128

09-90-557-50-598    MULTI    AL/DOL    07-MAY-90    State of Oregon A-128
09-90-563-50-598    MULTI    AL/DOL    20-APR-90    State of CaliforniaA-128
09-90-591-50-598    MULTI    AL/DOL    10-AUG-90    State of Washington A-128
09-90-599-50-598*   MULTI    AL/DOL    23-AUG-90    Hawaii DOL/Industrial    Relations A-128
09-90-601-50-598"   MULTI    AL/DOL    24-AUG-90    Alaska Department of Labor A-128
09-90-602-50-598    MULTI    AL/DOL    06-SEP-90    Federal States of Micronesia A-128
09-90-605-50-598*   MULTI    AL/DOL    ll-SEP-90    City of Los Angeles A-128

12-90-017-03-001    ETA      ADMIN     28-SEP-90    FY 89 Internal Control/Compliance

12-90-012-03-315    ETA      UIS       16-MAY-90    Federal Employees'   Compensation    Account

12-90-027-03-355    ETA      DINAP     12-SEP-90    ACKCO, Inc.

12-90-013-03-370    ETA      OJC       21-SEP-90    PY 87 & 88 Financial Statements     Review
12-90-021-03-370    ETA      OJC       26-SEP-90    Interactive Training, Inc.
12-90-029-03-370    ETA      OJC       27-SEP-90    Dau Walker and Associates
12-90-034-03-370    ETA      OJC       25-SEP-90    JTC, Inc.
12-90-036-03-370    ETA      OJC       28-SEP-90    PY 87 Analysis: Job Costs Invested
12-90-037-03-370    ETA      OJC       28-SEP-90    PY 88 Analysis: Job Costs Invested



                                              76
                                     Final Audit Reports Issued
                                     April 1 - September 30, 1990
                                              Date Sent
Audit                                         to Program
Report Number         Agency     Program      Agency          Name of Audit/Auditee


12-90-028-03-380       ETA        SPPD         25-SEP-90      Berkeley Planning Association
12-90-030-03-380       ETA        SPPD         24-SEP-90      N.B. Kenney Co., Inc.
12-90-031-03-380       ETA        SPPD         26-SEP-90      SRI International
12-90-032-03-380       ETA        SPPD         27-SEP-90      CSR, Inc.
12-90-033-03-380       ETA        SPPD         25-SEP-90      Associate Consultants
12-90-035-03-380       ETA        SPPD         12-SEP-90      Macro Systems, Inc.

12-90-004-07-001       OASAM      ADMIN        21-SEP-90      FY 89 DOL Financial Statements
12-90-019-07-001       OASAM      ADMIN        30-JUL-90      FY 88 DOL Financial Statements

12-90-024-07-735       OASAM      OPGM         24-SEP-90      CSR, Inc.

17-90-012-02-001       VETS       ADMIN        23-AUG-90      Procured    Goods and Services

17-90-014-03-380       ETA        SPPD         06-JUL-90      Procured Goods and Services

17-90-013-07-001       OASAM      ADMIN        28-SEP-90      IntcragencyAgreeement:        ILO

17-90-015-11-001       BLS       ADMIN         28-SEP-90      Procured Goods and Services

18-90-017-03-310       ETA        OFCMS        13-JUL-90      Discretionary   Grants and Contracts

18-90-033-03-355       ETA        DINAP        28-SEP-90      National Urban Indian Council

18-90-010-07-735       OASAM      OPGM         16-JUL-90      Home Builders Institute
18-90-013-07-735       OASAM OPGM              30-JUL-90      Career Systems Development
18-90-016-07-735       OASAM OPGM              09-AUG-90      Teledyne Economic Development Corporation
18-90-018-07-735       OASAM OPGM              ll-SEP-90      AFL-CIO Appalachian Council Inc.
18-90-022-07-735       OASAM OPGM              28-SEP-90      Technical Assistance Group
18-90-025-07-735       OASAM OPGM              19-JUL-90      DMJM/HTB - Cost Methodology
18-90-026-07-735       OASAM OPGM              19-JUL-90      DMJM/HTB
18-90-028-07-735       OASAM OPGM              30-JUL-90      Home Builders Institute
18-90-031-07-735       OASAM OPGM              16-AUG-90      OIC of America


18-90-034-07-735       OASAM     OPGM          28-SEP-90      National Council on the Aging, Inc.

19-90-005-03-001       ETA       ADMIN         02-MAY-90      Improvement     Needed:    LAN Management

19-90-009-07-710       OASAM     COMP          27-SEP-90      DOLAR$      Reports:    User Satisfaction

19-90-010-07-720       OASAM     DIRM          27-SEP-90      ECN: Its Uses and Impact

*DOL has cognizant responsibility for specific entities under the Single Audit Act. Reports listed and asterisked
above indicate those entities for which DOL has cognizance. More than one audit report may have been issued or
transmitted for an entity during this time period. Reports are issued or transmitted based on the type of funding
and the agency/program     responsible for resolution. Multiple-agency reports with a designation of"50-598" relate
to Single Audit reports only.
                                                       77
             APPENDIX

Memorandum    concerning "Underutilization"
             (See Chapter 1)




                    79
                                                       U.S. DEPARTMENT   OF LABOR
                                                      DEPUTY SECRETARY    OF LABOR
                                                             WASHINGTON,  D.C.
                                                                   20210

                                                                October    17, 1990

MEMORANDUM            FOR JULIAN     DE LA ROSA

FROM:      RODERICK     A. DEARMENT        [signed]

SUBJECT:     OIG's Recommendation       Regarding     New OFCCP Regulations     to Define Underutilization

         I have met with Solicitor Bob Davis, Assistant Secretary Bill Brooks, and Carl Dominquez, Director of the Office of Federal Contract
Compliance Programs (OFCCP), to further review and discuss the Office of the Inspector General's (OIG) recommendation          that OFCCP be
required to issue regulations further defining the concept of"underutilization."   This recommendation  is contained in the OIG's Final Audit
Report 04-86-079-04.-410, entitled, "OFCCP Needs to More Effectively and Efficiently Enforce Federal EEO Regulations."

          I believe that rulemaking is inappropriate   at this time. Under the regulations implementing Executive Order 11246, Government
contractors with a contract of $50,000 or more must develop and implement written affirmative action programs (AAP). A key element of
each AAP is goals and timetables to eliminate any "underutilization"      of minorities or women. In developing its AAP, the contractor divides
all the jobs in its establishment  into "job groups" (groups of jobs having similar content, wage rates, and opportunities).    Then, for each job
group, the contractor compares the actual employment of minorities and women in the job group with the "availability" of minorities and
women for employment in that job group (e.g., their representation     in the appropriate feeder areas, such as the area population of entry-level
labor jobs, or law school graduates for legal jobs). When fewer minorities or women are employed in the job group than "would reasonably
be expected by their availability," the contractor must declare "underutilization"      and establish goals and timetables. See 41 CFR 60-2.11(b).

           The regulations do not further define the phrase ''would reasonably be expected by their availability."    Traditionally, OFCCP
interpreted the phrase to mean that underutilization must be declared whenever there is "any difference" between job group employment and
availability, and issued "Technical Guidance Memorandum     No. 1" reflecting this position. The Memorandum was successfully challenged in
Firestone v. Marshall, 507 F. Supp. 1330 (E.D. Tex. 1981), in which the court found that it amounted to a substantive rule that should have
been published for notice and comment as required by the Administrative      Procedure Act.

          Since the time of the Firestone decision, OFCCP, without modifying its regulations or compliance manual, has accepted any
'reasonable'    method used by a contractor to determine underutilization.   Contractors have used three principal methods to determine
underutilization,   and they are mentioned in the OIG report: any difference rule; 80% rule; and the two standard deviations method.

           The Firestone case did not invalidate Section 60-2.11(b). The regulation, accordingly, remains valid and, in OFCCP's judgment,
viable. It also provides flexibility in an area that is coming under increasing judicial and legislative scrutiny. Moreover, the Office of the
Solicitor has advised OFCCP that the regulation and the policy to which they adhere thereunder           in applying the regulation are legally
defensible.

          The OIG maintains that OFCCP should promulgate a regulation "which will resolve the issues raised by the courts in defining
underutilization." But, redefining underutilization is not amenable to the "easy fix" that the OIG report implies is possible.

           The Firestone case was decided at the time the affirmative action debate between the Department of Justice and the Department    of
Labor was emerging but before it became public. The debate between the Departments          of Justice and Labor regarding affirmative action
effectively prevented all rulemaking under the Executive Order. Indeed, the Department of Labor's efforts to promulgate Executive Order
regulations during 1981 and 1982 were overtaken by the debate. Since that time, the Supreme Court has entered into the area.

         Thus, whether a regulation ultimately is needed to further address under-utilization, and more importantly the content and timing of
such regulation, are questions that do not exist in a vacuum. Underutilization is only one of a host of policy issues related to affirmative action
and equal employment opportunity that require close consideration by OFCCP, ESA, and the Secretary.

         OFCCP for some time has been considering comprehensive        approaches to goals and affirmative action, and will continue to do so.
Whether, and if so how, to redefine underutilization is an integral part of that consideration. For instance, were the Department   to opt for
a completely new approach to affirmative action, underutilization   might no longer be a relevant concept.

          In my view it does not make sense, and may not be practically feasible, to address this matter in a piecemeal fashion by redefining
underutilization  now and then proposing additional changes to the affirmative action rules at a later date. Instead, a well-reasoned, integrated
strategy covering the entire affirmative action area is necessary.

         Finally, Assistant Secretary for Policy Jennifer Dorn took a similar position on behalf of the Department. In a February 12, 1990,
memorandum      to Mr. Maria responding to suggestions made by Mr. Maria for items to be included in the Department's    annual regulatory
program, Ms. Dorn stated:

     Finally, the issue of when, how, and if OFCCP's regulations should be revised is still under consideration.    As you know, the Ad-
     ministration is reviewing the whole area of EEO requirements based on a number of Supreme Court decisions from last year. If
     either regulatory or statutory changes prove desirable, the issue you raise on 'underutilization' will be dealt with then.




                                                                          81
               ABBREVIATIONS               USED IN THIS REPORT

ADMIN    Agency Administration
AICPA    American Institute of Certified Public Accountants
AL/DOL   All DOL agencies involved in the audit
ASAM     Assistant Secretary for Administration and Management
BAT      Bureau of Apprenticeship Training (ETA)
BL       Black Lung Benefits Program (ESA)
BLDTF    Black Lung Disability Trust Fund (ESA)
BI._     Bureau of Labor Statistics
CETA     Comprehensive Employment and Training Act (ETA)
CMWC     Coal Mine Workers' Compensation (ESA)
COMP     Comptroller
DBRA     Davis Bacon and Related Acts
DFEC     Division of Federal Employees' Compensation (ESA)
DINAP    Division of Indian and Native American Programs (ETA)
DIRM     Directorate of Information Resources Management (OASAM)
DOJ      Department of Justice
DOL      Department of Labor
DOLAR$   Department of Labor Accounting Related Systems (OASAM)
DOWP     Division of Older Workers Program (ETA)
DSFP     Division of Seasonal Farmworker Programs (ETA)
DVOP     Disabled Veterans Outreach Program (VETS)
ECN      Executive Computer Network
ERISA    Employee Retirement Income Security Act
ESA      Employment Standards Administration
ETA      Employment and Training Administration
FECA     Federal Employees' Compensation Act
FMFIA    Federal Managers' Financial Integrity Act
FLC      Foreign Labor Certification
GAO      Government Accounting Office
GAAP     Generally Accepted Accounting Principles
GRTEES   Grantees
ILO      International Labor Organization
ILAB     Bureau of International Labor Affairs
ILGWU    International Ladies Garment Workers'     Union
JFMIP    Joint Financial Management Improvement      Program
JTPA     Job Training Partnership Act (ETA)
LAN      Local Area Network
LMRDA    Labor Management Reporting and Disclosure Act
MEWA     Multiple Employer Welfare Arrangement
MSHA     Mine Safety and Health Administration
MSHAG    Mine Safety and Health Administration Grantees
NCOA     National Council on the Aging
NO/DOL   No DOL funds involved in the audit
OASAM    Office of Assistant Secretary for Administration and Management
OI       Office of Investigations (OIG)
OIC/A    Opportunities Industrial Centers of America, Inc.
OIG      Office of Inspector General
OJC      Office of Job Corps
OJT      On-the-Job Training
OLMS     Office of Labor-Management     Standards
OLR      Office of Labor Racketeering (OIG)

                                              83
OMB      Office of Management and Budget
OPGM     Office of Procurement and Grant Management (OASAM)
ORMLA    Office of Resource Management and Legislative Assessment   (OIG)
OSEC     Office of the Secretary
OSHA     Occupational Safety and Health Administration
OSHAG    Occupational Safety and Health Administration Grantees
OT AGY   Agency other than DOL
OWCP     Office of Workers' Compensation Programs (ESA)
PFCRA    Program Fraud Civil Remedies Act of 1986
PIC      Private Industry Council
PWBA     Pension and Welfare Benefits Administration
SESA     State Employment     Security Agency
SOL      Solicitor of Labor
SPPD     Stategic Planning and Policy Development Office (ETA)
TAA      Trade Adjustment Act
UIS      Unemployment Insurance Service (ESA)
VETS     Veterans' Employment and Training Services




                                                84
